1a
United States Court of Appeals, Ninth Circuit.
Waverly Scott KAFFAGA, as Executrix of the Estate
of Elaine Anderson Steinbeck, Plaintiff-Appellee,
v.
The ESTATE OF Thomas STEINBECK, Gail Knight
Steinbeck, and The Palladin Group, Inc., DefendantsAppellants.
No. 18-55336
Argued and Submitted August 6, 2019 Anchorage,
AlaskaFiled September 9, 2019
Attorneys and Law Firms
Matthew J. Dowd (argued), Dowd Scheffel PLLC,
Washington, D.C.; Matthew I. Berger, Matthew I.
Berger Law Group, Santa Barbara, California; for
Defendants-Appellants.
Susan J. Kohlmann (argued), Alison I. Stein, and
Brittany R. Lamb, Jenner & Block LLP, New York,
New York; Andrew J. Thomas, Jenner & Block LLP,
Los Angeles, California; for Plaintiff-Appellee.
Appeal from the United States District Court for the
Central District of California, Terry J. Hatter, Jr.,
District Judge, Presiding, D.C. No. 2:14-cv-08699-TJHFFM
Before: Richard C. Tallman, Sandra S. Ikuta, and N.
Randy Smith, Circuit Judges.

2a
OPINION
TALLMAN, Circuit Judge:
PROLOGUE
“This ‘suit has, in course of time, become so
complicated, that ... no two ... lawyers can talk
about it for five minutes, without coming to a
total disagreement as to all the premises.
Innumerable children have been born into the
cause: innumerable young people have married
into it;’ and, sadly, the original parties ‘have died
out of it.’ A ‘long procession of [judges] has come
in and gone out’ during that time, and still the
suit ‘drags its weary length before the Court.’ ”
Stern v. Marshall, 564 U.S. 462, 468, 131 S.Ct. 2594, 180
L.Ed.2d 475 (2011) (Roberts, C.J.) (quoting Charles
Dickens, Bleak House, in 1 Works of Charles Dickens
4–5 (1891)). “Those words were not written about this
case ... but they could have been.” Id.
Appellants Gail Knight Steinbeck (“Gail”), the
Estate of Thomas Steinbeck (to which she is executrix),
and The Palladin Group, Inc. (“Palladin”) (which she
owns and controls) (collectively, “Defendants”), have
vowed they will not stop litigating their interests in
profiting from John Steinbeck’s literary works until
Gail draws her “last breath.” The parties (and their
predecessors in interest) have been litigating over the
bequests in John Steinbeck’s will and the changes in
copyright laws as they impact on rights to his
intellectual property for almost half of a century. Most
notably, the parties have repeatedly disputed the

3a
meaning and validity of a 1983 settlement agreement
(the “1983 Agreement”) entered between Elaine
Steinbeck (“Elaine”), the widow of John Steinbeck, and
Thomas Steinbeck (“Thom”) and John Steinbeck IV
(“John IV,” collectively with Thom, his “Sons”), and
their rights to control and profit from the various John
Steinbeck books.
In this latest round, a federal jury in Los
Angeles unanimously awarded Waverly Kaffaga
(“Kaffaga” or “Plaintiff”), as executrix of Elaine’s
estate, approximately $5.25 million in compensatory
damages for slander of title, breach of contract, and
tortious interference with economic advantage, and $7.9
million in punitive damages against Defendants. On
appeal, Defendants argue, among other things, that (1)
prior litigation related to the 1983 Agreement did not
decide whether Defendants had termination rights
under 1998 amendments to U.S. copyright laws, (2) the
district court improperly excluded evidence *1010
relating to Defendants’ intent, which they raised as a
defense to intentional interference with Kaffaga’s
efforts to negotiate movie rights to Steinbeck works
and punitive damages, (3) the punitive damages award
was not supported by meaningful evidence of Gail’s
financial condition and was excessive under California
law, and (4) the compensatory damages awarded were
duplicative and speculative.
We have jurisdiction under 28 U.S.C. § 1291. We
affirm the compensatory damages award and vacate
and remand with instructions to dismiss the punitive
damages claims against Gail.
CHAPTER I

4a
“There ain’t no sin and there ain’t no virtue.
There’s just stuff people do. It’s all part of the
same thing. And some of the things folks do is
nice, and some ain’t nice, but that’s as far as any
man got a right to say.” John Steinbeck, The
Grapes of Wrath 23 (2002).
During his lifetime, John Steinbeck registered
and renewed the copyrights to his works, including The
Grapes of Wrath, Of Mice and Men, East of Eden, and
The Pearl, so that they were protected by the version
of the Copyright Act in effect at the time. When John
Steinbeck died in 1968, he left his interests in his works
to his third wife, Elaine. The Sons, John’s by a previous
marriage, each received a $50,000 gift in a trust, which,
according to Gail, was “pretty substantial money for
two boys just coming back from Vietnam.”
The Sons later acquired an interest in some of
Steinbeck’s later works1 when the interests had to be
renewed. See 17 U.S.C. § 304(a)(1)(C). To try to resolve
their competing interests Elaine and the Sons entered
into an agreement in 1974 (the “1974 Agreement”) that
provided Elaine would receive 50 percent of the
domestic royalties to the works, and the Sons would
each receive 25 percent.
In 1976, Congress amended the Copyright Act.
One of the amendments created termination rights2 for
certain heirs with respect to certain categories of
works. See Copyright Act of 1976, Pub. L. No. 94-553,
90 Stat. 2541 (effective 1978). If the work is subject to
termination under the Copyright Act, § 304(c)(5)
indicates that termination “may be effected

5a
notwithstanding any agreement to the contrary.” 17
U.S.C. § 304(c)(5); see also 17 U.S.C. § 304(d)(1)
(providing for termination under the same
circumstances).
In 1981, following the amendments to the
Copyright Act, the Sons sued Elaine in the United
States District Court for the Southern District of New
York contesting the 1974 Agreement and accusing
Elaine of fraud. John Steinbeck, IV and Thom
Steinbeck v. Elaine Steinbeck, No. 81 Civ. 6105
(S.D.N.Y. Dec. 8, 1982). The parties entered into the
1983 Agreement to settle the dispute.
The 1983 Agreement provided that the Sons
would receive an increased share of the royalties from
the works—one third each, rather than a quarter. In
exchange, Elaine received “complete power and
authority to negotiate, authorize and take action with
respect to the exploitation and/or termination of rights”
in the works.
In 1995, Thom married Gail. The couple
thereafter formed Palladin, a management and
production company in Los Angeles.3 In 2003, Elaine
passed away. Pursuant to the 1983 Agreement, her
daughter, Waverly Kaffaga, as executrix of Elaine’s
estate, stepped into Elaine’s shoes as successor under
the 1983 Agreement.
In 1998, Congress again amended the Copyright
Act. These amendments added an additional
termination right, exercisable during a five-year
window opening 75 years after the first publication of a

6a
copyrighted work. See Pub. L. No. 105-298, 112 Stat.
2827 (1998).
In 2004, Thom and Blake sued Kaffaga and
others involved in publishing the works in the Southern
District of New York (and Kaffaga and the publishers
countersued), which resulted in numerous decisions by
both the district court there and the United States
Court of Appeals for the Second Circuit (the “New York
Litigation”). The parties (and others) have been
litigating their rights under the 1983 Agreement ever
since. See, e.g., Steinbeck v. McIntosh & Otis, Inc., 433
F. Supp. 2d 395 (S.D.N.Y. 2006), rev’d sub nom.
Penguin Grp. (USA) Inc. v. Steinbeck, 537 F.3d 193 (2d
Cir. 2008); Steinbeck v. McIntosh & Otis, Inc., No. 04
CV 5497 (GBD), 2009 WL 928189 (S.D.N.Y. Mar. 31,
2009), aff’d sub nom. Steinbeck v. Steinbeck Heritage
Found., 400 F. App'x 572 (2d Cir. 2010), cert. denied,
564 U.S. 1012, 131 S.Ct. 2991, 180 L.Ed.2d 836 (2011).
Relevant here, the Second Circuit concluded that the
1983 Agreement was a valid and enforceable
agreement, which “forecloses any argument that the
parties intended the [Sons] to retain control over
Elaine[’s] exercise of the authority conferred upon her.”
400 F. App'x at 575.
Despite their losses at the Second Circuit, the
plain language of the 1983 Agreement, and a stipulated
judgment they signed forgoing all further litigation,
Thom and Blake continued spending time and treasure
asserting rights courts had already told them they did
not have. In 2014, they sued Kaffaga and others in the
United States District Court for the Central District of
California seeking, among other things, a declaration
that the 1983 Agreement was an “agreement to the

7a
contrary” under 17 U.S.C. §§ 304(c) and (d) and
therefore could not prevent them from exercising
termination rights.
The district court in Los Angeles (Hon. Terry
Hatter) dismissed Thom and Blake’s case in 2015,
holding that their claims were precluded by the
doctrine of collateral estoppel because the Second
Circuit had conclusively determined that the 1983
Agreement was valid and enforceable.
In November 2017, we affirmed the district
court’s 2015 ruling in Thom and Blake’s case, holding in
no uncertain terms that all issues presented on appeal
were barred by collateral estoppel. Steinbeck v.
Kaffaga, 702 F. App'x 618, 619–20 (9th Cir. 2017). We
concluded that the Second Circuit “squarely held” that
the 1983 Agreement is valid and enforceable, and “[t]he
district court correctly concluded that the Sons already
have fully litigated whether they have a right to issue
and exploit copyright terminations of Steinbeck’s
works, and that the prior litigation held that the Sons
do not have those rights.” Id. Thus, Thom and Blake’s
arguments to the contrary were precluded. See id.
CHAPTER II
“An unbelieved truth can hurt a man much more
than a lie.” John Steinbeck, East of Eden 264
(1992).
In 2014, after Thom and Blake brought their
action that was dismissed in 2015 and affirmed on
appeal, Kaffaga countersued by filing this case in the
Central District of California. She alleged breaches of

8a
the 1983 Agreement, slander of title, and tortious
interference with economic advantage in the time since
the New York Litigation had ended, and she sought
punitive damages. Among other things, Kaffaga alleged
that Defendants had continued to attempt to assert
various rights in Steinbeck works despite their
previous court losses establishing they had no such
rights. Those attempts led to multiple Hollywood
producers abandoning negotiations with Kaffaga to
develop screenplays for, among other things, a remake
of The Grapes of Wrath and East of Eden involving
highly successful movie producers and well-known
actors.
Judge Hatter granted Kaffaga summary
judgment on her breach of contract and slander of title
claims and left the resolution of contested facts
regarding the tortious interference claims for the jury
to decide.
In the summer of 2017, Judge Hatter ruled on
motions in limine. Judge Hatter granted Kaffaga’s
motion to preclude evidence and argument related to
issues decided by prior courts without prejudice to
Defendants’ filing a motion in limine to introduce such
evidence that could otherwise be shown to be relevant
and not amounting to relitigation. The court later
denied Defendants’ motion in limine to permit certain
subsets of that evidence and argument related to the
prior litigation, reiterating that the New York
Litigation had established that “the 1983 Agreement
bound the parties’ heirs, successors, and assigns.” Prior
to trial, the district court also struck defenses
Defendants argued were applicable to the tortious

9a
interference claims as precluded by the prior decisions
in this litigation.
Beginning on August 29, 2017, the district court
conducted a five-day jury trial with 13 witnesses,
including Thom (by video deposition) and Gail, and the
admission of 78 exhibits. The court sustained several
objections to testimony by Gail related to her
justification for contacting various producers or
attempting to compete with Kaffaga in negotiating with
Hollywood studios the disputed control of rights in
various John Steinbeck works, including her contrary
understanding of the previous court decisions. Certain
testimony and documents about Gail’s and Thom’s
reasoning and understanding of the 1983 Agreement
and the prior court decisions were nonetheless
permitted at trial and not stricken, including testimony
conveying their lack of respect for the previous adverse
court decisions.
After careful and correct instruction by the
district court on all issues in the case, the jury
unanimously found for Kaffaga on the remaining claims
and awarded $13.15 million in compensatory and
punitive damages against Defendants:
•

$1.3 million for Kaffaga’s breach of
contract claim;

•

$1.3 million for Kaffaga’s slander of title
claim;

•

$2.65 million for Kaffaga’s intentional
interference of prospective economic
advantage claim; and

•

10a
$7.9 million for punitive damages,
including $5.925 million against Gail
individually.

In February 2018, after the jury had spoken, the
district court denied Defendants’ motion for judgment
as a matter of law, new trial, and/or remittitur. It held
that judgment as a matter of law and a new trial were
inappropriate because the jury’s verdict was reasonable
and supported by substantial evidence. The court also
denied remittitur because it was “not convinced that
the jury should have *1013 reached a different verdict
or that the verdict reached was improper.”
CHAPTER III
“There’s more beauty in truth, even if it is
dreadful beauty.” John Steinbeck, East of Eden
360 (1992).
We review the granting of summary judgment
de novo. Ford v. City of Yakima, 706 F.3d 1188, 1192
(9th Cir. 2013) (per curiam). We review evidentiary
rulings for abuse of discretion and only reverse if any
abuse was prejudicial. Nevada Dep’t of Corr. v. Greene,
648 F.3d 1014, 1018 (9th Cir. 2011); Ruvalcaba v. City of
Los Angeles, 64 F.3d 1323, 1328 (9th Cir. 1995) (reversal
only when an erroneous evidentiary ruling
“substantially prejudiced” a party).
We review a jury’s verdict, including
compensatory and punitive damages awards, for
substantial evidence. In re Exxon Valdez, 270 F.3d
1215, 1247–48 (9th Cir. 2001) (compensatory damages);

11a
Fair Hous. of Marin v. Combs, 285 F.3d 899, 907 (9th
Cir. 2002) (punitive damages).
Denial of a motion for new trial and remittitur
are reviewed for abuse of discretion. See Martin v. Cal.
Dep’t of Veterans Affairs, 560 F.3d 1042, 1046 (9th Cir.
2009). Denials of motions for judgment as a matter of
law are reviewed de novo. See Dunlap v. Liberty Nat.
Prods., Inc., 878 F.3d 794, 797 (9th Cir. 2017). We must
avoid reversing a jury verdict for lack of evidence or
alleged double recovery if the verdict is capable of a
“correct interpretation” that is not illegal, and if the
verdict is not “hopelessly ambiguous.” Roby v.
McKesson Corp., 47 Cal.4th 686, 101 Cal.Rptr.3d 773,
219 P.3d 749, 760 (2009), modified, (Feb. 10, 2010);
Flores v. City of Westminster, 873 F.3d 739, 751–52 (9th
Cir. 2017), cert. denied sub nom. Hall v. Flores, –––
U.S. ––––, 138 S. Ct. 1551, 200 L.Ed.2d 742 (2018).
CHAPTER IV
“Can it be that haters of clarity have nothing to
say, have observed nothing, have no clear
picture of even their own fields?” John
Steinbeck, The Log from the Sea of Cortez 62
(1995).
We previously held in 2017, in affirming the
dismissal of Thom and Blake’s suit concerning the
rights allocated in the 1983 Agreement, that “the
parties have already litigated the precise issues raised
in this suit ‘ad nauseum’ in the Second Circuit” and
that “[t]he district court correctly concluded that the
Sons already have fully litigated whether they have a
right to issue and exploit copyright terminations of

12a
Steinbeck’s works.” Steinbeck v. Kaffaga, 702 F. App'x
at 619–20. Defendants’ arguments in this case
(Kaffaga’s suit) were squarely before us in the earlier
case (Thom and Blake’s suit), and we held that all of
defendants’ arguments there were precluded by the
decisions of the Second Circuit. See id.; see also Dkt.
No. 40-1 at 7, 18. In the most recent trial in August
2017, the district court’s summary judgment and
evidentiary rulings were consistent with our prior
holding. Those decisions were correct, and we will not
revisit them here. Whether a prior disposition is
published or unpublished is of no consequence—
unpublished decisions have the same preclusive effect.
See 9th Cir. R. 36-3 (unpublished dispositions and
orders are precedent for the purposes of *1014 the
doctrine of law of the case or rules of claim preclusion
or issue preclusion).
4

Therefore, we affirm the orders granting
summary judgment and striking Defendants’ defenses
to tortious interference on grounds of collateral
estoppel. It follows that the district court’s decisions to
exclude evidence related to Defendants’ different
understanding of the 1983 Agreement or the validity of
prior court decisions were not abuses of the trial court’s
discretion. In any event, the record indicates that the
district court allowed Gail to testify about her
understanding of the 1983 Agreement and the
Copyright Act at trial.
Defendants must now stop attempting to
relitigate the validity and enforceability of the 1983
Agreement, including whether it is an “agreement to
the contrary,” and their understanding of the 1983
Agreement and the plethora of court decisions

13a
interpreting it. They must also stop representing to the
marketplace that they have any intellectual property
rights or control over John Steinbeck’s works. The 1983
Agreement vests those control rights exclusively in
Kaffaga, as successor to her mother Elaine, and is
enforceable according to its terms. Various federal
courts, including this one, have repeatedly affirmed
Elaine and Kaffaga’s exclusive control. This has to end.
We cannot say it any clearer.
CHAPTER V
“And now that you don’t have to be perfect, you
can be good.” John Steinbeck, East of Eden 585
(1992).
We affirm the jury’s compensatory damages
award on all causes of action in the clearly written and
fully answered special verdict form because they are
supported by substantial evidence. See In re Exxon
Valdez, 270 F.3d at 1247–48. The evidence of damages
attributed by the jury to each cause of action was
sufficiently separate and non-duplicative under
California law. Roby, 101 Cal.Rptr.3d 773, 219 P.3d at
760; see also Flores, 873 F.3d at 752 (holding there was
not impermissible double recovery from multiple
defendants and affirming the jury verdict where
substantial
evidence
permitted
“a
correct
interpretation” of the jury’s verdict that avoided
finding double recovery). And we presume that the jury
followed the district court’s thorough and clear
instructions to avoid double recovery. See United States
v. Johnson, 767 F.3d 815, 824 (9th Cir. 2014).
Defendants point to circumstantial evidence that the
verdict is reversible as double recovery under Khoury

14a
v. Maly’s of Cal., Inc. See 14 Cal.App.4th 612, 17 Cal.
Rptr. 2d 708, 712 (1993) (rejecting tortious interference
and breach of contract as separate causes of action that
would lead to double recovery for the same harm). It is
true that because the district court granted summary
judgment on Plaintiff’s breach of contract and slander
of title causes of action here, the jury was only asked
specific factual questions about tortious interference
and reached $2.65 million in total tortious interference
damages. The special verdict form then asked more
generally about damages for breach and slander
because the court had granted summary judgment on
those claims. The jury answered by giving identical
sums of $1.3 million to each. The fact that the jury gave
$1.3 million for both slander and breach and, when
combined, now nearly equal the $2.65 million awarded
for tortious interference is indeed suspicious.
But suspicion of double recovery is not enough to
reverse a jury’s verdict, and this case is distinguishable
from Khoury. See id. at 711 (“sole alleged [tortious]
conduct of [the defendant] was the breach of contract”
(emphasis added)); see also *1015 Walker v. Signal
Cos., Inc., 84 Cal.App.3d 982, 149 Cal. Rptr. 119, 125
(1978) (impermissible double recovery where no
separate evidence supported distinct awards for
damages in contract and tort). As an initial matter,
Khoury was at the motion to dismiss stage; it did not
overturn a jury verdict. Moreover, Kaffaga presented
evidence of tactics or actions that violated the 1983
Agreement that were not independently tortious, like
Gail’s attempting to negotiate separately for her own
piece of option deals. And the jury heard evidence of
Defendants’ separate, tortious conduct such as lying,
meddling, slandering, and threatening litigation to

15a
harm Kaffaga and Elaine’s estate. Cf. Roby, 101
Cal.Rptr.3d 773, 219 P.3d at 759–60 (new trial required
because even the plaintiff’s proposed approach to
interpreting the verdict so as to avoid double recovery
created “an inconsistency” in the amounts actually
awarded, and the plaintiff admitted there was “no
evidence of an act of discrimination that [wa]s separate
from her failure-to-accommodate and wrongfultermination claims”).
The district court here carefully cited the facts it
believed supported breach of contract “and/or” slander
of title to the jury, such as Gail’s statements (1) to the
Executive Vice President of Business Affairs at
DreamWorks that he “should read this attachment very
carefully before you decide to make a deal with the
Scott family alone” because “the two-thirds owners of
that copyright want to make a deal with you” and “give
you the chain of title you need”; (2) that the adaptation
of The Pearl is one of “a few current projects for which
we control the underlying rights”; and (3) to a third
party concerning an East of Eden movie deal that
Kaffaga’s agent did not represent Gail and Thom “on a
copyright termination because it created a brand new
set of rights,” that someone at the studio needed to call
her in relation to “who is out there marketing the brand
and ‘new set of rights’ because somebody could get in
trouble,” and she and Thom “don’t want that to
happen.”
Therefore, the record contains substantial
evidence to support the awards on each cause of action
independently, especially giving deference to the jury’s
verdict. See McCollough v. Johnson, Rodenburg &
Lauinger, LLC, 637 F.3d 939, 955 (9th Cir. 2011); see

16a
also Tavaglione v. Billings, 4 Cal.4th 1150, 17
Cal.Rptr.2d 608, 847 P.2d 574, 580 (1993) (in bank)
(“[W]here separate items of compensable damage are
shown by distinct and independent evidence, the
plaintiff is entitled to recover the entire amount of his
damages, whether that amount is expressed by the jury
in a single verdict or multiple verdicts referring to
different claims or legal theories.”).
The compensatory damages here were also not
speculative; they were based on reasonable estimates
established by lay and expert testimony, as well as
documentary evidence. GHK Assocs. v. Mayer Grp.,
Inc., 224 Cal.App.3d 856, 274 Cal. Rptr. 168, 179–80
(1990) (“The law requires only that some reasonable
basis of computation of damages be used, and the
damages may be computed even if the result reached is
an approximation.” (citing Allen v. Gardner, 126
Cal.App.2d 335, 272 P.2d 99, 102 (1954) (“[J]ustice and
public polic[y] require that the wrongdoer shall bear
the risk of the uncertainty which his own wrong has
created.” (citation omitted)))). We affirm the jury’s
compensatory damages award on all causes of action.
CHAPTER VI
“[I]ntentions, good or bad, are not enough.” John
Steinbeck, The Winter of Our Discontent 99
(2008).
California law provides for punitive damages
where the defendant has acted with “fraud, or malice,”
express or *1016 implied, which must be proven with
clear and convincing evidence. Cal. Civil Code § 3294(a).
“There must be an intent to vex, annoy, or injure.”

17a
Gombos v. Ashe, 158 Cal.App.2d 517, 322 P.2d 933, 939
(1958) (holding “negligence, even gross negligence, is
not sufficient to justify” punitive damages). The
requisite intent to support punitive damages is malice,
and it “may be proved ‘either expressly (by direct
evidence probative on the existence of hatred or ill will)
or by implication (by indirect evidence from which the
jury may draw inferences).’ ” Neal v. Farmers Ins.
Exch., 21 Cal.3d 910, 148 Cal.Rptr. 389, 582 P.2d 980,
987 n.6 (1978) (quoting Bertero v. Nat’l Gen. Corp., 13
Cal.3d 43, 118 Cal.Rptr. 184, 529 P.2d 608, 625 (1974)).
Defendants argue that Gail did not act with the
requisite intent to sustain punitive damages but could
not properly explain that to the jury due to the district
court’s rulings on the motions in limine and preventing
certain lines of questioning.5 Kaffaga responds that
Defendants are really complaining that “Gail ‘was not
allowed to fully explain’ her answers when she was
cross-examined by” Kaffaga, which is simply the nature
of cross-examination. We agree with Kaffaga that
Defendants could have presented evidence related to
Gail and Thom’s understanding of their rights and the
New York Litigation in other ways, including on
redirect examination. Regardless, Kaffaga maintains
that any error was harmless.
Kaffaga has the better argument. Gail was at
times not permitted to answer beyond the scope of the
questions on cross-examination; her responses related
to her belief about rights she actually held and the
impact of the New York Litigation in settling those
issues were properly stricken as beyond the scope of
direct. But the court occasionally permitted Gail to
explain her beliefs about her and Thom’s putative

18a
rights in various works, or otherwise instructed her
that she could more fully explain answers about her
understanding of agreements and court decisions when
her own attorney examined her on direct. And on cross
examination by her own counsel when she was called to
testify during Kaffaga’s case-in-chief, the court
overruled at least one of Kaffaga’s objections related to
Gail’s beliefs about her rights because Gail’s counsel
explained that he was seeking to clarify items Kaffaga
asked Gail about on direct.6 These evidentiary decisions
were reasonable and balanced; the court did not abuse
its discretion. See United States v. Olafson, 213 F.3d
435, 442 (9th Cir. 2000) (finding no abuse of discretion
where the district court’s evidentiary decisions were
well-reasoned and comported with precedent).
Kaffaga fails to respond to defense challenges to
one series of sustained objections during Gail’s direct
testimony in the Defendants’ case-in-chief where the
district court limited her testimony regarding the New
York Litigation and Gail and Thom’s alleged
termination rights. However, assuming arguendo that
those rulings were erroneously reasoned, they were not
abuses of discretion because the complaint framing the
issues for trial only alleges causes of action based on
facts arising after the Second Circuit’s decision in 2010.
Evidence of, and argument regarding, Gail and Thom’s
beliefs prior to 2010 were not relevant to whether
Defendants should have been subjected to punitive
damages for their actions post-2010.
Moreover, the record contains multiple instances
that were not stricken of Gail testifying that she
believed she and Thom actually had retained certain
control rights to various John Steinbeck works. And

19a
Defendants argued at trial, including during closing
statements to the jury, that they did not act with the
requisite intent to support punitive damages.
Additional testimony and argument regarding those
beliefs would have been unnecessarily cumulative and
may very well have damaged Defendants’ case by
belaboring their lack of respect for previous court
decisions.
Even more importantly, the record contains
overwhelming evidence of Gail and Thom’s malice to
support the punitive damages award, and thus any
error was harmless. The jury did not credit Gail’s
forceful assertion of her belief that she and Thom
maintained termination and negotiation rights, and that
they attempted to separately negotiate with the studios
in order to maximize profits from the sale of intellectual
property rights in Steinbeck’s works. The testimony at
trial instead established that Gail and Thom knew
about the 1983 Agreement and the various court
decisions upholding the fact that Elaine (and Kaffaga)
control Steinbeck’s works. It further showed that Gail
and Thom attempted to exercise their purported
negotiation and termination rights anyway, and that
Thom “had no intention of stopping [his] challenge to all
of these things, so it really didn’t make a lot of
difference to [him] that a decision would go one way or
the other until [he’d] finally won.”
Additionally, the documentary evidence that
Defendants were knowingly and purposefully acting
contrary to those court decisions, including written
statements that the rulings in the New York Litigation
“won’t stand” and were “always going to be nebulous,
[and] always going to be at risk,” is devastating. The

20a
documents demonstrate that, when they learned that
Kaffaga was negotiating film rights for The Grapes of
Wrath and East of Eden, Gail and Thom intended to
insert themselves and thwart negotiations by “riddl[ing
them] with lawsuits.” The record stands as persuasive
evidence that they made good on the threat.
The documents further show that Gail and Thom
acted out of hatred and ill will, contrary to Defendants’
arguments that they were only acting in their own
economic interest and thus not attempting to actually
impede any deals. See Bertero, 118 Cal.Rptr. 184, 529
P.2d at 625 (improper motive of “hatred or ill will”
meriting the award of punitive damages). Gail wrote in
an email that she was “just pissed” and planned to
litigate even though it would cause a “pricey situation
with little [return on investment].” Thom himself
penned that he sued Kaffaga in New York because he
“didn’t agree with her maintaining [his] father’s
inheritance.” And the jury could have reasonably
interpreted Gail’s insistence on negotiating with
production companies in secret to mean that she knew
such negotiations behind Kaffaga’s back were improper.
We hold there is more than ample evidence of
Defendants’ malice in the record to support the jury’s
verdict, triggering entitlement to punitive damages.
See Pavao v. Pagay, 307 F.3d 915, 918 (9th Cir. 2002)
(“A jury’s verdict must be upheld if it is supported by
substantial evidence ..., even if it is also possible to
draw a contrary conclusion.”). To the extent there were
any erroneous decisions that prevented some evidence
about what rights Gail and Thom believed they had,
there was no abuse of discretion and, regardless, any
error was harmless. See Molina v. Astrue, 674 F.3d

21a
1104, 1119 (9th Cir. 2012) (holding “a district court’s
erroneous exclusion of evidence does not warrant
reversal unless the error more probably than not
tainted the verdict” (internal quotation marks and
citations omitted)).
CHAPTER VII
“With a few exceptions people don’t want
money. They want luxury and they want love
and they want admiration.” John Steinbeck, East
of Eden 541 (1992).
Defendants argue that the punitive damages
award against Gail is illegally excessive under
California law.7 They contend there is insufficient
evidence of Gail’s financial condition and ability to pay
to support punitive damages. And, in so many words,
even if the evidence is sufficient to sustain some
amount of punitive damages, the $5.9 million awarded
against Gail is disproportionately large compared to her
financial condition.8
When faced with a challenge to the size of
punitive damages under California law, reviewing
courts must “determine whether the award is excessive
as a matter of law or raises a presumption that it is the
product of passion or prejudice.” Adams v. Murakami,
54 Cal.3d 105, 284 Cal.Rptr. 318, 813 P.2d 1348, 1350
(1991) (in bank). This “ ‘passion and prejudice’ standard
does not occur in a vacuum, but is measured against,” as
relevant here, “the ratio between the damages and the
defendant’s net worth.” Boyle v. Lorimar Prods., Inc.,
13 F.3d 1357, 1360 (9th Cir. 1994) (per curiam) (quoting
Las Palmas Assocs. v. Las Palmas Ctr. Assocs., 235

22a
Cal.App.3d 1220, 1 Cal. Rptr. 2d 301, 323 (1991)); see
also Neal, 148 Cal.Rptr. 389, 582 P.2d at 990 (seminal
California Supreme Court case). It is the plaintiff’s
burden to place into the record “meaningful evidence of
the defendant’s financial condition” to support a
defendant’s ability to pay. Adams, 284 Cal.Rptr. 318,
813 P.2d at 1349, 1357–60. “The rule established by
lower California courts is that only net, not gross,
figures are relevant.” Boyle, 13 F.3d at 1361; see also
Lara v. Cadag, 13 Cal.App.4th 1061, 16 Cal. Rptr. 2d
811, 813 n.2 (1993), modified, (Mar. 9, 1993). The record
thus must contain sufficient evidence of Gail’s assets,
income, and liabilities and expenses for the punitive
damages award to stand. See Boyle, 13 F.3d at 1361.
Gail testified that she receives between $120,000
and $200,000 per year from domestic book royalties
from John Steinbeck’s *1019 works. At the time of trial,
she and Palladin had four television series and six
feature films in development, with three “in some form
of prep,” and she testified that she would be “paid for
these projects when they are optioned or licensed.”
Yet, Kaffaga introduced no estimate of Gail’s potential
income from those endeavors or the total value of her
other intellectual property assets, and thus they cannot
serve to support the punitive damages award. The
record contains some testimonial evidence about her
lack of expenses, including no minor children,
mortgages, or other debts. But Kaffaga failed to adduce
any other evidence, including, for example, an expert
accountant to examine Gail’s financial records to
estimate her liabilities or net worth.9
The record indisputably contains some evidence
of Gail’s financial condition. However, we conclude that

23a
Plaintiff failed to meet her burden of placing into the
record “meaningful evidence” of Gail’s financial
condition and ability to pay any punitive damages
award sufficient to permit us to conduct the
comparative analysis on appeal required by California
law. See Adams, 284 Cal.Rptr. 318, 813 P.2d at 1350; see
also Kelly v. Haag, 145 Cal.App.4th 910, 52 Cal. Rptr.
3d 126, 130 (2006) (reversing a punitive damages award
for lack of evidence where there was vague testimony
by a layman regarding the defendant’s assets and
liabilities that was otherwise unsupported by
documentation or expert testimony); Boyle, 13 F.3d at
1361. In reviewing the record, we are unable to come to
even a reasonable approximation of Gail’s net worth.
Without that, we have nothing to compare to the size of
the award to complete the excessiveness analysis under
California law. We therefore vacate the jury’s punitive
damages award against Gail for lack of evidence of her
ability to pay, and remand to the district court with
instructions to dismiss the punitive claims against Gail.
No additional evidence or briefing on the issue is
necessary.
CHAPTER VIII
“We asked a gentleman by us, if he knew what
cause was on? He told us [Steinbeck]. We asked
him if he knew what was doing in it? He said,
really no he did not, nobody ever did; but as well
as he could make out, it was over. ‘Over for the
day?’ we asked him. ‘No,’ he said; ‘over for good.’
” “Over for good!” Charles Dickens, Bleak House
865 (1991).

24a
This dispute is indeed over. We reverse and
vacate the punitive damages award against Gail. All
other issues and the award of compensatory damages
are affirmed. The district court may wish to reconsider
Kaffaga’s request for an injunction to put an end to this
recidivist litigation. This panel will retain jurisdiction
over any subsequent appeals.
Costs are awarded to the Appellee.
AFFIRMED IN PART AS TO COMPENSATORY
DAMAGES
CLAIMS,
VACATED
AND
REMANDED IN PART WITH INSTRUCTIONS
TO DISMISS THE PUNITIVE DAMAGES
CLAIMS.
Footnotes
1Steinbeck’s early works were renewed before he died
in 1968 and are not at issue in this case.
2Under certain circumstances, federal copyright law
allows authors or their heirs to terminate the prior
grant of a transfer or license of an author’s copyright in
a work or of any other right under a copyright. See 17
U.S.C. §§ 203, 304(c), 304(d). To terminate a grant, a
written, signed termination notice must be served on
the grantee or the grantee’s successor-in-interest, and
the termination notice must be recorded with the U.S.
Copyright Office.
3In 1991, John IV passed away, and his daughter, Blake
Smyle (“Blake”), and his former wife inherited his
interest.

25a
4We grant Appellee’s motion for judicial notice [Dkt.
No. 40] and Defendants’ motion for judicial notice [Dkt.
No. 54] as unopposed and because they are the proper
subjects of judicial notice in evaluating a claim of
collateral estoppel, including examination of the
briefing filed in the prior federal court cases. See
Ritchey v. Upjohn Drug Co., 139 F.3d 1313, 1319 (9th
Cir. 1998).
5Defendants focus most of this argument on their
justification defense for tortious interference. However,
because that defense was stricken prior to trial and
Defendants do not challenge that decision except by
arguing collateral estoppel did not preclude it—which it
did— we only analyze the district court’s evidentiary
decisions in the context of punitive damages.
6As to the proposed testimony from potential witness
Louis Petrich regarding Gail and Thom’s termination
rights and their “complexity,” the district court did not
abuse its discretion in excluding it. Indeed, the district
court carefully examined whether Petrich, an attorney
who apparently previously consulted with Thom and
Gail about their termination rights, could offer any
testimony other than improper expert testimony on his
legal opinion. The court’s conclusion that Petrich’s
testimony would be irrelevant and improper legal
opinion was correct and was not an abuse of discretion.
See Hangarter v. Provident Life & Accident Ins. Co.,
373 F.3d 998, 1016 (9th Cir. 2004) (“[A]n expert witness
cannot give an opinion as to her legal conclusion, i.e., an
opinion on an ultimate issue of law.” (emphasis omitted)
(citation omitted)). Petrich was also not properly
disclosed as a testifying expert before trial, and

26a
therefore could not testify as an expert. See Fed. R.
Civ. P. 37(c).
7The propriety of punitive damages is a matter of state
law; thus California law applies here. See BrowningFerris Indus. of Vt., Inc. v. Kelco Disposal, Inc., 492
U.S. 257, 278, 109 S.Ct. 2909, 106 L.Ed.2d 219 (1989).
8For the first time in their reply, Defendants argue
that the Plaintiff failed to “identify any evidence
relating to the financial wherewithal of Thom or
Palladin that would warrant punitive damages [of $2
million] against either of them.” This argument may
have had legs had it been properly raised in the opening
brief. But the issue is not properly before the panel
because it was neither raised in the opening brief nor to
the district court. See Burlington N. & Santa Fe Ry.
Co. v. Vaughn, 509 F.3d 1085, 1093 n.3 (9th Cir. 2007)
(appellants forfeit an “argument by raising it for the
first time in their reply brief”).
9At oral argument, Plaintiff’s counsel referenced
problems obtaining that evidence during discovery
because Gail was uncooperative. But Plaintiff failed to
(1) show where she sought to compel additional
evidence from Gail and was denied, (2) seek an adverse
inference instruction at trial, or (3) brief either point.

27a
FILED OCT 17 2019
MOLLY C. DWYER, CLERK U.S. COURT OF
APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
WAVERLY SCOTT KAFFAGA, as Executrix of the
Estate of Elaine Anderson Steinbeck, PlaintiffAppellee,
v.
THE ESTATE OF THOMAS STEINBECK, GAIL
KNIGHT STEINBECK, and THE PALLADIN
GROUP, INC., Defendants-Appellants
No. 18-55336 D.C. No.2:14-cv-08699-TJH-FFM
Central District of California,Los Angeles
ORDER
Before: TALLMAN, IKUTA, and N.R. SMITH,
Circuit Judges.
Judge Ikuta has voted to deny the petition for
rehearing en banc and Judge Tallman and Judge N.R.
Smith so recommend.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Appellants’ petition for rehearing en banc is denied.

28a
JENNER & BLOCK LLP
Andrew J. Thomas (SBN 159533)
AJThomas@jenner.com
633 West 5th Street, Suite 3600
Los Angeles, CA 90071
Telephone: 213 239-5200
Facsimile: 213 239-5199
Susan J. Kohlmann (Pro Hac Vice)
SKohlmann@jenner.com
Alison I. Stein (Pro Hac Vice)
AStein@Jenner.com
919 Third Avenue
New York, NY 10022
Telephone: 212 891-1600
Facsimile: 212 891-1699
Attorneys for Plaintiff Waverly Scott Kaffaga, as
Executor for the Estate of Elaine Anderson Steinbeck

29a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. 14-cv-08699 TJH FFMx
JUDGMENT AFTER JURY TRIAL
JS-6
Waverly Scott Kaffaga, as Executor for the Estate of
Elaine Anderson Steinbeck, Plaintiff,
v.
The Estate of Thomas Steinbeck, Gail Knight
Steinbeck, and The Palladin Group, Inc., Defendant.
WHEREAS on November 10, 2014, Plaintiff
Waverly Scott Kaffaga, as Executor of the Estate of
Elaine Anderson Steinbeck ("Plaintiff'), filed a
complaint pleading causes of action for breach of
contract, slander of title, and intentional interference
with prospective economic advantage, and seeking a
declaratory judgment and permanent injunction
against Defendants Thomas Steinbeck, Gail Knight
Steinbeck, and The Palladin Group, Inc. (collectively,
"Defendants");
WHEREAS on November 17, 2014, Plaintiff
filed an amended complaint pleading the same causes of
action against the same Defendants;
WHEREAS on April 1, 2016 Plaintiff filed a
motion for summary judgment as to liability on all of
her claims;

30a
WHEREAS on November 1, 2016 this Court
issued an Order granting summary judgment to
Plaintiff on her claims of slander of title and breach of
contract (the "Summary Judgment Order");
WHEREAS in its Summary Judgment Order
this Court found that a 1983 Settlement Agreement
between Thomas Steinbeck, John Steinbeck IV, and
Elaine Anderson Steinbeck (the "1983 Agreement") was
a valid and enforceable contract that gave Elaine
Anderson Steinbeck and her heirs the complete power
and authority to control the exploitation of the literary
works of John Steinbeck (the "Steinbeck Works");
WHEREAS the Court also found that the
Estate of Elaine Anderson Steinbeck had met its
obligations under the 1983 Agreement;
WHEREAS the Court held that Defendants'
communications to third parties in which they claimed
control over the intellectual property rights to the
Steinbeck Works or sought to exploit those works or
authorized others' to exploit those Works breached the
1983 Agreement and caused damages;
WHEREAS the Court found Defendants to have
slandered Plaintiff's title in the Steinbeck Works by
repeatedly and falsely asserting to various third parties
that they had a right to control the exploitation of the
Steinbeck Works, causing Plaintiff direct pecuniary
harm;
WHEREAS Thomas Steinbeck died on August
11, 2016, and the Estate of Thomas Steinbeck was

31a
substituted for Thomas Steinbeck as a defendant
during the course of pretrial proceedings;
WHEREAS a jury trial was held from August
29 to September 5, 2017, regarding the damages on
Plaintiff's breach of contract and slander of title
claims, and regarding both liability and damages on
Plaintiff's claim for intentional interference with
prospective economic advantage;
WHEREAS at the conclusion of that trial, the
jury reached a unanimous verdict finding all three
Defendants liable for intentional interference with
prospective economic advantage and awarding
Plaintiff $5,250,000 in total compensatory damages
and $7,900,000 in total punitive damages, as set forth
in the verdict form that appears at Docket No. 295;
IT
IS
HEREBY
ORDERED
AND
ADJUDGED that Plaintiff Waverly Scott Kaffaga, as
Executor of the Estate of Elaine Steinbeck, shall
recover $13,150,000 in total damages from the
Defendants, in accordance with the jury's verdict, as
follows:
A.
The amount of $1,300,000 on Plaintiff's
claim for breach of contract;
B.

The amount of $1,300,000 on Plaintiff's
claim for slander of title;

C.
The amount of $1,000,000 against
Defendant the Estate of Thomas Steinbeck on
Plaintiff's claim for intentional interference with
Plaintiff's prospective economic relationship with

32a
Universal/Imagine relating to the East of Eden
transaction;
D.
The amount of $500,000 against
Defendant Gail Steinbeck on Plaintiff's claim for
intentional interference with Plaintiff's prospective
economic relationship with Universal/Imagine relating
to the East of Eden transaction;
E.
The amount of $500,000 against
Defendant The Palladin Group, Inc. on Plaintiff's claim
for intentional interference with Plaintiff's prospective
economic relationship with Universal/Imagine relating
to the East of Eden transaction;
F.
The amount of $325,000 against
Defendant the Estate of Thomas Steinbeck on
Plaintiff's claim for intentional interference with
Plaintiff's prospective economic relationship with
DreamWorks Pictures relating to the Grapes of Wrath
transaction;
G.
The amount of $162,500 against
Defendant Gail Steinbeck on Plaintiff's claim for
intentional interference with Plaintiff's prospective
economic relationship with DreamWorks Pictures
relating to the Grapes of Wrath transaction;
H.
The amount of $162,500 against
Defendant The Palladin Group, Inc. on Plaintiff's claim
for intentional interference with Plaintiff's prospective
economic relationship with DreamWorks Pictures
relating to the Grapes of Wrath transaction;

33a
I.
The amount of $5,925,000 in punitive
damages against Defendant Gail Steinbeck; and
J.
The amount of $1,975,000 in punitive
damages against Defendant The Palladin Group, Inc.
Plaintiff shall also recover reasonable costs in
accordance with Fed. R. Civ. P. 54, 28 U.S.C. § 1920,
and L.R. 54-1.
Dated: March 15, 2018
HON. TERRY J. HATTER, JR.
United States District Judge

34a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
WAVERLY SCOTT KAFFAGA, as executor of the
Estate of Elaine Steinbeck,
Plaintiff,
v.
THE ESTATE OF THOMAS STEINBECK, et al.,
Defendants.
CV 14-08699 TJH (FFMx)
ORDER
[324,326]
The Court has considered Defendants' motion to stay
enforcement of the judgment pending appeal without
the posting of a supersedeas bond and Plaintiff's motion
for an assignment and restraining order, together with
the moving and opposing papers.
IT is ORDERED that Defendants' motion to
stay enforcement of the judgment without a
supersedeas bond be, and hereby is, GRANTED.
It is further Ordered that Plaintiff's motion for
an assignment and restraining order be, and hereby is,
Denied with leave to renew if the judgment is affirmed
by the Ninth Circuit.
Date: October 30, 2018

35a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DISTRICT
WAVERLY SCOTT KAFFAGA, as executor of the
Estate of Elaine Steinbeck,
Plaintiff,
v.
THE ESTATE OF THOMAS STEINBECK, et al.,
Defendants.
CV 14-08699 TJH (FFMx)
ORDER
[324,326]
The Court has considered Defendants' motion to
stay enforcement of the judgment pending appeal
without the posting of a supersedeas bond and
Plaintiff's motion for an assignment and restraining
order, together with the moving and opposing papers.
IT is ORDERED that Defendants' motion to
stay enforcement of the judgment without a
supersedeas bond be, and hereby is, Granted.
It is further Ordered that Plaintiff's motion for
an assignment and restraining order be, and hereby is,
Denied with leave to renew if the judgment is affirmed
by the Ninth Circuit.
Date: October 30, 2018

36a
702 Fed.Appx. 618
This case was not selected for publication in West's
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of App. 9th Cir. Rule
36-3.
United States Court of Appeals,
Ninth Circuit.
Gail Knight STEINBECK, Personal representative of
Thomas Myles Steinbeck; Blake Smyle, PlaintiffsAppellants,
v.
Waverly Scott KAFFAGA; et al., DefendantsAppellees.
No. 15-56375
Submitted November 13, 2017* Pasadena, California
Filed November 16, 2017
Appeal from the United States District Court for the
Central District of California, Terry J. Hatter, District
Judge, Presiding, D.C. No. 2:14-cv-08681-TJH-GJS

Attorneys and Law Firms

37a
Daniel Saunders, Partner, Kasowitz Benson Torres
LLP, Los Angeles, CA, for Plaintiff-Appellant
Blake Smyle, Pro Se
Susan J. Kohlmann, Alison I. Stein, Jenner & Block
LLP, New York, NY, Andrew J. Thomas, Jenner &
Block LLP, Los Angeles, CA, for Defendants-Appellees
Waverly Scott Kaffaga, Jean Anderson Boone, David
Scott Farber, Anderson Farber King, Jebel Kaffaga,
Bahar Kaffaga
Joshua G. Graubart, Esquire, Law Offices of Joshua
Graubart, P.C., New York, NY, David W. Kesselman,
Trevor Vincent Stockinger, Kesselman Brantly
Stockinger LLP, Manhattan Beach, CA, for DefendantAppellee Dramatists Play Service
Nicolas Andreas Jampol, Davis Wright Tremaine LLP,
Los Angeles, CA, Elizabeth Anne McNamara, Esquire,
Attorney, Davis Wright Tremaine LLP, New York,
NY, for Defendant-Appellee McIntosh & Otis, Inc.
Before: NGUYEN and HURWITZ, Circuit Judges, and
EATON,**International Trade Judge.
MEMORANDUM***
This is a suit by descendants of John Steinbeck's
sons (the “Sons”) about their ability to terminate and
exploit copyrights of Steinbeck's literary works. The
district court dismissed the action, finding it barred by
collateral estoppel (issue preclusion). We have
jurisdiction under 28 U.S.C. § 1291 and affirm.
As the district court correctly noted, the parties
have already litigated the precise issues raised in this

38a
suit “ad nauseum” in the Second Circuit. See Steinbeck
v. Steinbeck Heritage Found., 400 Fed.Appx. 572 (2d
Cir. 2010); Penguin Grp. (USA) Inc. v. Steinbeck, 537
F.3d 193 (2d Cir. 2008). The Second Circuit squarely
held that a 1983 Settlement Agreement is
“unambiguous and forecloses any argument that the
parties intended the [Sons] to retain control over” the
“exploitation and/or termination of rights in the works
of John Steinbeck.” Steinbeck, 400 Fed.Appx. at 575.
Moreover, a stipulated judgment entered in 2009 in the
United States District Court for the Southern District
of New York expressly provides that two of the
termination notices at issue in this suit are invalid,1 and
that the 1983 Settlement Agreement binds the parties.
See Stipulation & Order with Respect to Counterclaims
& Intervenor Complaint at 4, Steinbeck v. McIntosh &
Otis, Inc., No. 04-CV-5497 (GBD) (S.D.N.Y. Dec. 2,
2009), ECF No. 140.
The district court correctly concluded that the
Sons already have fully litigated *620 whether they
have a right to issue and exploit copyright terminations
of Steinbeck's works, and that the prior litigation held
that the Sons do not have those rights. See Oyeniran v.
Holder, 672 F.3d 800, 806 (9th Cir. 2012).2
AFFIRMED3
Footnotes
*The panel unanimously concludes this case is suitable
for decision without oral argument. See Fed. R. App. P.
34(a)(2). Appellants' motion for oral argument, Dkt. 64,
is denied.

39a
**Richard K. Eaton, Judge of the United States Court
of International Trade, sitting by designation.
***This disposition is not appropriate for publication
and is not precedent except as provided by Ninth
Circuit Rule 36-3.
1Because the parties already actually litigated the
validity of The Red Pony and The Long Valley
termination notices, claim preclusion also applies. See
Tahoe-Sierra Pres. Council, Inc. v. Tahoe Reg'l
Planning Agency, 322 F.3d 1064, 1077 (9th Cir. 2003).
2The Sons fail to “specifically and distinctly” raise in
their opening brief any argument about the district
court's dismissal of the claims for copyright
infringement for Of Mice and Men, rights to The
Grapes of Wrath and Tortilla Flat, and the right to
rescind the power of attorney granted to appellees and
to terminate M & O as a literary agent. Miller v.
Fairchild Indus., Inc., 797 F.2d 727, 738 (9th Cir. 1986).
In addition to being barred by collateral estoppel, these
issues are waived. See id. The Sons also argue for the
first time on appeal that “[u]nder the Covenant of Good
Faith and Fair Dealing [appellees] are required to pay
[the Sons] the fair market value” for the license for a
documentary of The Grapes of Wrath. Because this
issue was not raised below, it is waived. See Whittaker
Corp. v. Execuair Corp., 953 F.2d 510, 515 (9th Cir.
1992).
3We grant appellees' motion to take judicial notice,
Dkt. 38.

40a
United States District Court, C.D. California, Western
Division.
Waverly Scott KAFFAGA, etc., Plaintiff,
v.
Thomas STEINBECK, et al., Defendants.
CV 14-8699 TJH (FFMx)
Signed 11/01/2016
Attorneys and Law Firms
Alison I. Stein, Pro Hac Vice, Brittany R. Lamb, Pro
Hac Vice, Susan J. Kohlmann, Pro Hac Vice, Gretchen
O. Stertz, Pro Hac Vice, Jenner and Block LLP, New
York, NY, Andrew Jackson Thomas, Jenner and Block
LLP, Los Angeles, CA, for Plaintiff.
Matthew Ira Berger, Djamila V. Demangeat, Robert
McDairmant Graham, Matthew Berger Law Group
APC, Santa Barbara, CA, for Defendants.
Order
[100, 119, 120]
Terry J. Hatter, Jr., Senior United States District
Judge
The Court has considered Plaintiff’s motion for
partial summary judgment, together with the moving
and opposing papers.

41a
Plaintiff Waverly Scott Kaffaga, as executor of
the estate of Elaine Anderson Steinbeck [“the Estate”],
filed this action against Defendants Thomas Steinbeck
[“Thom”], Gail Knight Steinbeck [“Gail”] and the
Palladin Group Inc. [“Palladin”] [collectively “TGP”],
following a number of alleged improper communications
by TGP to third parties. The Estate asserted four
claims: (1) breach of contract; (2) slander of title; (3)
intentional interferences with prospective economic
benefit; and (4) declaratory judgment. The Estate, now,
moves for summary judgment as to liability on its
claims.
BACKGROUND
This case adds a new chapter to the Parties’
sprawling litigation history, which this Court
previously characterized as litigation ad nauseam.
John Steinbeck’s works [the “Works”] can be
divided into two categories — the “Early Works” and
the “Later Works” — based on whether a work’s
copyright was renewed before or after John Steinbeck
died. Upon John Steinbeck’s death, his third wife,
Elaine Steinbeck [“Elaine”], inherited absolute control
over the Early Works. See Steinbeck v. McIntosh &
Otis, Inc., 433 F. Supp. 2d 395, 399 (S.D.N.Y. 2006)
[“McIntosh & Otis I”].
The Later Works were a different story. In 1976,
pursuant to an amendment of the Copyright Act, 17
U.S.C. § 304(c), Thom (as well as his late brother, John
Steinbeck IV [“John IV”] ) gained termination rights —
in essence, the limited right to cancel certain grants of
copyrights — with respect to the Later Works.

42a
Steinbeck v. McIntosh & Otis, Inc., 2009 WL 928189, at
*3 (S.D.N.Y. Mar. 31, 2009) [“McIntosh & Otis III”].
Thom did not gain termination rights, or any other
intellectual property rights, with respect to the Early
Works. McIntosh & Otis III, No. 04 CV 5497 (GBD),
2009 WL 928189, at *3.
Pursuant to an agreement entered into in the
1970s, Thom received twenty-five percent of the
royalties generated from the Later Works, Elaine
received fifty percent, and John IV received the
remaining twenty-five percent. In 1983, Thom and
Elaine entered into an agreement [the “1983
Agreement”] by which Thom “ced[ed] control over [his]
copyright interests to Elaine Steinbeck” and, in
exchange, “Elaine Steinbeck relinquished her ... right to
a one-half share [of royalties] by agreeing to an equal
one-third split.” McIntosh & Otis III, 2009 WL 928189,
at *3. The 1983 Agreement “conferred upon Elaine
Steinbeck ‘the complete power and authority to
negotiate, authorize and take action with respect to the
exploitation and/or termination of rights in the works of
John Steinbeck in which ... [Thom] ha[s] or will have
renewal or termination rights.’ ” Steinbeck v. Steinbeck
Heritage Found., 400 F. App’x 572, 575 (2d Cir. 2010).
In 1998, Congress amended the Copyright Act to
create, under 17 U.S.C. § 304(d), a new right to
terminate copyright grants during a five-year window
that opens seventy-five years after the first publication
of a copyrighted work. Following Elaine’s death in
2003, the ownership of intellectual property rights —
including termination rights under § 304(d) — of certain
Works was vigorously litigated in federal courts in New
York.

43a
In 2008, the Second Circuit Court of Appeals
addressed whether Thom had the authority to issue
termination notices under § 304(d) with respect to
certain Works. Penguin Grp. (USA) Inc. v. Steinbeck,
537 F.3d 193 (2d Cir. 2008) The suit arose from the
issuance of a termination notice under § 304(d) by Thom
and John Steinbeck’s granddaughter. Penguin Grp.
(USA) Inc., 537 F.3d at 196–97. The Second Circuit
considered, inter alia, whether Thom had the authority
to issue a termination notice under § 304(d) in light of a
1994 agreement that Elaine entered into with a
publishing company relating to certain Works. Penguin
Grp. (USA) Inc., 537 F.3d at 196. The Second Circuit
concluded that “[b]ecause the termination right
provided by section 304(d) pursuant to which the ...
termination notice was issued applies only to pre-1978
grants of transfers or licenses of [a] copyright, and
because the 1994 agreement left intact no pre-1978
grant for the works in question ... the ... notice of
termination [was] ineffective.” Penguin Grp. (USA)
Inc., 537 F.3d at 196.
On remand, the United States District Court for
the Southern District of New York addressed the scope
of the 1983 Agreement with respect to certain Works,
as well as with respect to Elaine’s authority to
terminate the publishing company that the 1983
Agreement appointed as literary agent. McIntosh &
Otis III, 2009 WL 928189; Steinbeck v. McIntosh &
Otis, Inc., No. 04 CV 5497 (GBD), 2009 WL 928171
(S.D.N.Y. Mar. 31, 2009) [“McIntosh & Otis II”]. The
McIntosh & Otis III District Court found that “[t]he
1983 Agreement gave Elaine ... the sole authority to
control the Steinbeck Works” at issue in that case. 2009
WL 928189, at *8. In McIntosh & Otis II, held that,

44a
under the 1983 Agreement, Elaine could terminate the
publishing company in her sole discretion. 2009 WL
928171, at *3. In a consolidated appeal, the Second
Circuit affirmed McIntosh & Otis II and III. In doing
so, the Second Circuit held that Thom “surrendered
‘complete authority’ to Elaine Steinbeck to exploit John
Steinbeck’s copyrights at issue and also vested her with
‘sole discretion’ to terminate” McIntosh & Otis’s
[“M&O”] agency. Steinbeck Heritage Found., 400 F.
App’x at 576.
The action before this Court centers on
communications the Estate alleges Thom, Gail, and
Palladin made to third parties regarding certain Works
between 2011 and 2014. First, the Estate claims that a
film
studio,
Universal/Imagine
[“Universal”],
terminated a film deal for East of Eden following
communications by Gail to third parties, including
executives at the film studio. In September, 2013, the
Estate, through its publishing company, M&O, and its
subsidiary, RWSG Literary Agency [“RWSG”],
accepted a financial offer from Universal for the film
rights to East of Eden. Subsequently, Gail, after
learning of the deal, allegedly contacted one of the
producers and threatened to terminate the assigned
rights to East of Eden, and claimed, elsewhere, that
Thom owned certain intellectual property rights,
including those to East of Eden. The Estate claims that
in November, 2014, Universal “decided to back away
from its negotiations with M&O and the Estate for a
film version of East of Eden.”
Second, the Estate claims that communications
by TGP to third parties, including Dream Works
Pictures [“Dream Works”] — and the resulting deal

45a
between TGP and Dream Works — diminished the
amount of money the Estate ultimately received in a
film deal relating to The Grapes of Wrath. In June,
2013, through M&O and RWSG, the Estate entered
into negotiations with Dream Works for a film
adaptation of The Grapes of Wrath. Dream Works made
the Estate an initial offer in July, 2013, and the deal was
executed in February, 2015. The Estate alleges that
“starting as early as July, 2013, Defendants began to
interfere with the Estate’s negotiations with Dream
Works and ultimately entered into their own
confidential ‘side deal’ with Dream Works.” The Estate
claims that the “side deal” “likely detracted from the
amount that Dream Works was willing to pay the
Estate ... for the underlying rights since film studios
typically have a specific overall budget for a project and
any amount dedicated to paying off Defendants would
need to come from” the amount earmarked for the
Estate.
Lastly, the Estate claims that TGP made a
number of communications to third parties asserting
ownership of intellectual property rights to certain
Works. These communications fall into two categories.
The first category of communications were
communications included in, or relating to, a petition
Gail filed with the California State Labor Commissioner
alleging that some of RWSG’s agents had operated
without a license [the “RWSG petition-related
communications”]. Specifically, these were:
East of Eden:
•

Gail Steinbeck filed a Petition against
RWSG with the California State Labor

46a
Commissioner [the “RWSG Petition”]
alleging that RWSG’s agents had been
operating without a license and that Thom
“owns or controls” two thirds of the
domestic rights to East of Eden.
Grapes of Wrath:
•

The RWSG petition, also, referenced
Thom’s alleged ownership of intellectual
property rights stating, “Thom[ ] either
owns or controls 2/3's of the domestic
intellectual property rights [to The
Grapes of Wrath].”

The second category of communications were
communications that were neither included in the
RWSG petition nor communicated in relation to the
RWSG petition [the “non-RWSG petition-related
communications”]. Specifically, these were:
East of Eden:
•

In September, 2013, Gail allegedly told a
third party that M&O did not represent
her and Thom “on a copyright termination
because it creates a brand new set of
rights,” and said that someone needed to
call her in relation to “who is out there
marketing [the ‘brand new set of rights’]
... because somebody could get in trouble
and [she and Thom] don’t want that to
happen.”

Grapes of Wrath:

•

47a
On October 2, 2013, Gail allegedly emailed
the Executive Vice President of Business
Affairs at DreamWorks saying “you
should read this attachment very
carefully before you decide to make a deal
with the Scott family alone. ... As I stated
in our last conversation, the two/thirds
owners of the copyright formed by this
first termination notice want to make a
deal with you. The Steinbeck family goal
is to give you the chain of title you need.”

The Pearl:
•

•

In an April, 2013 e-mail, Gail allegedly
listed Thom’s adaptation of The Pearl as
one of a “few current projects for which we
control the underlying rights.”
In January, 2014, Gail received notice
from a third party that an executive in
Business Affairs at Disney had indicated
that Disney was open to negotiations
regarding The Pearl, to which Gail
responded “[w]e can look to fund
independently
and
maybe
do
a
distribution deal with Disney.

The Long Valley:
•

Thom recorded an audio version of The
Long Valley, which Palladin offered for
sale on, inter alia, amazon.com. Gail had
allegedly told publishers that Thom

48a
“own[s] the rights to the copyright of that
particular CD.”
•

In September, 2011, Gail allegedly
asserted to someone associated with a
database for film and television rights
that Palladin represented the “film and/or
stage rights” to the short stories in The
Long Valley including Flight.

•

In December, 2012, Gail allegedly wrote
and signed a letter that served as “an
informal statement of a non-exclusive,
one-time Grant of Rights to the
Underlying Literary Property ‘Flight.’ ”
The letter purported to “grant said rights
... to Summer-Joy ‘SJ’ Main to adapt the
story entitled ‘Flight’ onto a short film[.]”

The Log from the Sea of Cortez:
•

In November, 2010, Gail told a producer
interested in the film rights to The Log
from the Sea of Cortez that “any attempts
to move forward with a project without
Thomas Steinbeck’s permission could
place the project in jeopardy.”

Cannery Row:
•

In October, 2013, Thom allegedly granted
an author permission to use a passage
from Cannery Row in a book and added,
“[s]hould you need any more legal proof
than [this e-mail], please send it along. I

49a
would be happy to sign off on whatever
you need.”
The Later Works:
•

In June, 2013, Gail allegedly informed a
journalist that “Thom still owns rights in
what are termed the Later Works.... Thom
still owns the copyrights. ...”
DISCUSSION

To prevail on summary judgment, the Estate, as
the party with the burden of proof at trial, has the
initial burden to establish the essential elements of each
of its claims. See S. Cal. Gas Co. v. City of Santa Ana,
336 F.3d 885, 888 (9th Cir. 2003). All inferences will be
viewed in the light most favorable to TGP. See United
States v. Diebold, Inc., 369 U.S. 654, 655 (1962). If the
Estate meets its burden, then the burden shifts to TGP
to show that a triable issue regarding a material fact
exists. See Gasaway v. Northwestern Mut. Life Ins. Co.,
26 F.3d 957, 960 (9th Cir.1994). TGP may not rest upon
the mere allegations or denials of their pleadings. See
Gasaway, 26 F.3d at 960.
“[F]ederal courts sitting in diversity apply state
substantive law and federal procedural law.” Snead v.
Metro. Prop. & Cas. Ins. Co., 237 F.3d 1080, 1090 (9th
Cir. 2001) (internal quotations omitted). Here, the
contract underlying the Estate’s breach of contract
claim has been interpreted under New York law by the
Southern District of New York and the Second Circuit.
Accordingly, this Court will apply New York law to the
breach of contract claim. The remaining state law tort

50a
claims, bearing no clear connection to New York, will
be construed under California law.
Breach of Contract
A claim for breach of contract, under New York
law, requires a plaintiff to establish that: (1) a contract
between the parties exists, (2) plaintiff performed its
obligations under the contract, (3) defendant breached
the contract, and (4) damages were caused by the
breach. Diesel Props S.r.l. v. Greystone Bus. Credit II
LLC, 631 F.3d 42, 52 (2d Cir.2011). Further, the “strict
enforcement [of settlement agreements] not only serves
the interest of efficient dispute resolution but is also
essential to the management of court calendars and
integrity of the litigation process.” Hallock v. State, 474
N.E.2d 1178 (1984).
Here, the Southern District of New York and
the Second Circuit have recognized that the 1983
Agreement is a valid, binding settlement agreement.
See, e.g., Steinbeck Heritage Found., 400 F. App’x at
575. The 1983 Agreement provided Elaine — and now
provides the Estate — with the “complete power and
authority to negotiate, authorize and take action with
respect to the exploitation and/or termination of rights
in the works of John Steinbeck. ...” Steinbeck Heritage
Found., 400 F. App’x at 575. The Estate has, also,
shown that it has met its obligations under the contract.
It is clear that Thom had been receiving the benefit of
the 1983 Agreement. See McIntosh & Otis II, 2009 WL
928171, at *3.
Some of TGP’s communications to third parties
in which TGP claimed ownership of intellectual

51a
property rights to the Works or sought to exploit the
Works constituted breaches of the 1983 Agreement
because Thom ceded to the Estate “complete power
and authority to negotiate, authorize and take action
with respect to the exploitation and/or termination of
rights in the works of John Steinbeck. ...” Steinbeck
Heritage Found., 400 F. App’x at 575. Both the RWSG
petition-related communications and the non-RWSG
petition-related communications breached the 1983
Agreement because those communications either
claimed ownership of copyrights in the Works, sought
to exploit the Works, or both, in contravention of the
1983 Agreement.
Those breaches caused damages. “Causation is
an essential element of damages in a breach of contract
action; and, as in tort, a plaintiff must prove that a
defendant’s breach directly and proximately caused his
or her damages.” Nat’l Mkt. Share, Inc. v. Sterling Nat.
Bank, 392 F.3d 520, 525 (2d Cir. 2004) (emphasis in
original). The declaration of expert Kathryn Arnold
sufficiently establishes a prima facie case that TGP’s
communications, identified above, to third parties “have
harmed and continue to harm the value of the entire
catalogue of Steinbeck Works[.]”
TGP did not raise a triable issue of fact by
directing the Court’s attention to Defendants’ Exhibit
X — which appears to be a series of website screenshots from an intellectual property rights database —
as it is not relevant. Nor was a triable issue of fact
raised by TGP’s apparent reference to Defendant’s
Exhibit W. In TGP’s counter statement of facts, TGP
indicated that Exhibit W, a spreadsheet, showed that
“[t]he income has remained relatively static since 2005

52a
[through 2015].” Arguments are not a substitute for
evidence. See Gasaway, 26 F.3d at 960. Thus, TGP’s
argument, alone, does not raise a triable issue of fact.
TGP failed to explain with specificity how Exhibit W
contradicted Ms. Arnold’s declaration. TGP, thus, failed
to raise a triable issue of fact as the Court “need not
paw over the files without assistance from the parties.”
Orr v. Bank of Am., NT & SA, 285 F.3d 764, 775 (9th
Cir. 2002) (internal quotations and citations omitted).
TGP, also, contended that the doctrine of unclean
hands bars relief for breach of contract. This argument
is inapposite, however, as the doctrine does not prevent
relief for breach of contract claims as it is “unavailable
in an action exclusively for damages[.]” Manshion Joho
Ctr. Co. v. Manshion Joho Ctr., Inc., 806 N.Y.S. 2d 480,
481 (App. Div. 2005). Accordingly, the Estate is entitled
to summary judgment as to its breach of contract claim.
Slander of Title
To prevail on a slander of title claim, a plaintiff
must show: “(1) a publication, (2) without privilege or
justification, (3) falsity, and (4) direct pecuniary loss.”
Sumner Hill Homeowners’ Ass’n v. Rio Mesa
Holdings, LLC, 205 Cal. App. 4th 999, 1030 (2012). The
Estate provided evidence that “Defendants have
repeatedly” and falsely “asserted throughout the
industry and the media that they have an interest in
and/or control over the ... Works which entitles them to
a role in Steinbeck-related negotiations.” The RWSG
petition-related communications and the non-RWSG
petition-related communications satisfy the first
element, publication, because “[t]he falsehood must be
communicated to a third person.” See Boys Town,

53a
U.S.A., Inc. v. World Church, 349 F.2d 576, 580 (9th
Cir. 1965).
However, only some of the communications were
made “without privilege or justification.” See Sumner
Hill Homeowners’ Ass’n, 205 Cal. App. 4th at 1030.
Although no privilege issue had been raised by the
Parties, the RWSG petition-related communications
may be shielded by California’s litigation privilege
because they were made in a “quasi-judicial”
proceeding. Ascherman v. Natanson, 23 Cal. App. 3d
861, 865 (1972). Quasi-judicial proceedings include
proceedings before administrative boards. Ascherman,
23 Cal. App. 3d at 865. Thus, the RWSG petitionrelated communications, having been made before an
administrative board, are immunized from tort liability.
The non-RWSG petition-related communications, on
the other hand, do not benefit from such immunity.
The
non-RWSG
petition-related
communications were made without privilege as they
were not communicated in, or bear any relation to, a
judicial or quasi-judicial proceeding. Nor are TGP’s
justifications for these communications availing. TPG
did not dispute that Gail sent the e-mail asserting
ownership of the “underlying right[s]” to The Pearl
screenplay, nor did TPG dispute that the claim was
false. With respect to the e-mail claiming that Thom
“own[s] the rights to the copyright to [The Long Valley
audio] CD,” TGP argued that “Thom owns the
copyright to his performance under 17 U.S.C. § 106 of
the Copyright Act.” He does not. The Second Circuit
held that the 1983 Agreement vested Elaine — and,
accordingly, the Estate — with “the complete power
and authority to negotiate, authorize and take action

54a
with respect to the exploitation and/or termination of
rights in” the Works including The Long Valley.
Steinbeck Heritage Found., 400 F. App’x at 575.
Consequently, the Estate has established the second
and third elements of the slander of title claim with
respect
to
the
non-RWSG
petition-related
communications.
Lastly, the Estate has established the last
element — direct pecuniary loss — with respect to the
non-RWSG petition-related communications. “Direct
pecuniary loss” is restricted to: “(a) the pecuniary loss
that results directly and immediately from the effect of
the conduct of third persons, including impairment of
vendibility or value caused by disparagement,” and “(b)
the expense of measures reasonably necessary to
counteract the publication, including litigation to
remove the doubt cast upon vendibility or value by
disparagement.” Appel v. Burman, 159 Cal. App. 3d
1209, 1215 (1984). Here, the Estate has presented an
expert’s declaration — the veracity of which TGP does
not dispute — that TGP’s communications caused harm
to the Works as a whole.
Accordingly, the Estate has established a prima
facie case as to the slander of title claim with respect to
the non-RWSG petition-related communications.
Because TGP has not raised a triable issue of fact, the
Estate is entitled to summary judgment on the slander
of title claim with respect to the non-RWSG petitionrelated communications.
Intentional Interference with Prospective Economic
Advantage

55a
The Estate argued that TGP tortiously
interfered with the East of Eden negotiations and The
Grapes of Wrath negotiations. The Estate, however, did
not present sufficient evidence to establish a prima
facie case for either argument.
As to the interference claim with respect to the
East of Eden negotiations, the Estate failed to present
admissible evidence that an “actual disruption” in the
relationship between the Estate and Universal
occurred. Korea Supply Co. v. Lockheed Martin Corp.,
63 P.3d 937, 950 (Cal. 2003). The Estate relied on two
documents in support of its claim that Universal
“decided to back away from its negotiations with ... the
Estate for a film version of East of Eden.” The first was
an e-mail from Elizabeth Rubinstein, the president and
managing agent of M&O, to Elizabeth Kohlmann, an
attorney for the Estate, indicating that the East of
Eden film deal negotiations had been terminated. The
email’s content, however, is inadmissable hearsay and,
thus, cannot be used to demonstrate that the East of
Eden deal was terminated; “hearsay evidence ... may
not be considered” at summary judgment. See Blair
Foods, Inc. v. Ranchers Cotton Oil, 610 F.2d 665, 667
(9th Cir. 1980).
The second document was an e-mail from Ms.
Kohlmann to, what appears to be, colleagues at Jenner
& Block LLP in which Ms. Kohlmann forwards a Daily
Journal article reporting on two matters before this
Court. The e-mail did not refer to the East of Eden
negotiations, nor was there any mention of Universal’s
decision to terminate the deal. The only hint the Estate
provided the Court as to the e-mail’s relevance was a
highlighted portion in which Ms. Kohlmann declined to

56a
comment on the matters reported by the Daily
Journal. As this e-mail did not have “any tendency to
make [the termination of the East of Eden deal] more
or less probable than it would be without the evidence,”
it was not relevant. See Fed. R. Evid. 401(a).
As to the interference claim with respect to the
Grapes of Wrath negotiations, the Estate’s claim failed
to present evidence “that it is reasonably probable that
the lost economic advantage would have been realized
but for the defendant’s interference.” See Kasparian v.
Cnty. of L.A., 38 Cal. App. 4th 242, 271 (1995) (emphasis
in original, quotations omitted). Claims that are
“inherently speculative” are not “reasonably probable.”
See Beckwith v. Dahl, 205 Cal. App. 4th 1039, 1055
(2012).
The Estate asserted that it was harmed by a
“side deal” reached by TGP and DreamWorks relating
to the Grapes of Wrath film deal. The Estate asserted
that the side deal “likely detracted from the amount
that DreamWorks was willing to pay the Estate ... since
film studios typically have a specific overall budget for
a project and any amount dedicated to paying off
Defendants would need to come from the budget for
acquiring the underlying rights from the Estate.”
(Emphasis added). This is insufficient to establish a
prima facie case that there was a reasonable
probability of the lost economic advantage. Basing the
claim on how “film studios typically” manage budgets is
“inherently speculative” as it entirely hinges on the
speculation that DreamWorks budgeted the Grapes of
Wrath deal in the same way that “film studios typically”
manage budgets. See Beckwith, 205 Cal. App. 4th at
1055.

57a
Accordingly, the Estate is not entitled to
summary judgment for its intentional interference with
prospective economic advantage claim.
Declaratory Judgment
Declaratory relief is discretionary. Brillhart v.
Excess Ins. Co. of Am., 316 U.S. 491, 494 (1942). It “is
appropriate (1) when the judgment will serve a useful
purpose in clarifying and settling the legal relations in
issue, and (2) when it will terminate and afford relief
from the uncertainty, insecurity, and controversy
giving rise to the proceeding.” Eureka Fed. Sav. &
Loan Ass'n v. Am. Cas. Co. of Reading, Pa., 873 F.2d
229, 231 (9th Cir. 1989) (internal quotations omitted).
The Estate seeks a declaration from this Court
that “the decisions issued by the Southern District and
the Second Circuit interpreting the 1983 Agreement
bar any claim that TGP might assert with respect to (1)
control over the exploitation of the Steinbeck Works
and (2) ownership of the copyrights in the Early
Steinbeck Works.” Nonetheless, the Estate concedes
that decisions by the Southern District and the Second
Circuit “left unresolved the narrow question about
termination under the 1983 Agreement” and that a
termination notice with respect to Of Mice and Men is
“currently at issue before the Ninth Circuit.” These
unresolved issues give this Court pause. Far from
“clarifying and settling the legal relations in issue,”
declaring ownership of unresolved intellectual property
rights would almost certainly lead to increased
“uncertainty, insecurity, and controversy giving rise to
the proceeding.” Eureka Fed. Sav. & Loan Ass’n, 873

58a
F.2d at 231. Thus, declaratory relief is not appropriate
here.
Accordingly,
It is Ordered that Plaintiff’s motion for partial
summary judgment be, and hereby is, Granted as to
liability for Plaintiff’s breach of contract claim and
Plaintiff’s slander of title claim with respect to the nonRWSG petition-related communications.
It is Further Ordered that Plaintiff’s motion for
summary judgment be, and hereby is Denied as to
Plaintiff’s slander of title claim with respect to the
RWSG petition-related communications.
It is Further Ordered that Plaintiff’s motion for
summary judgment be, and hereby is Denied as to
Plaintiff’s interference with prospective economic
advantage claim and request for declaratory judgment.

59a
400 Fed.Appx. 572
This case was not selected for publication in West's
Federal Reporter.
United States Court of Appeals,
Second Circuit.
Thomas STEINBECK and Blake Smyle, Plaintiffs–
Counter–Defendants–Appellants,
Nancy Steinbeck, Intervenor–Plaintiff,
v.
STEINBECK HERITAGE FOUNDATION, Steven
Frushtick, Scott Kaffaga, individually and as executor
of the Estate of Elaine Anderson Steinbeck, The Estate
of Elaine Anderson Steinbeck, Defendants–Counter–
Claimants–Appellees,
Does 1–10, Defendants–Appellees,
David Scott Farber, Bahar Kaffaga, Jean Anderson
Boone, and Jebel Kaffaga, Defendants–Counter–
Claimants–Intervenors–Defendants–Appellees,
Francis Anderson Atkinson, Scott Kaffaga, individually
and as executor of the Estate of Elaine Anderson
Steinbeck, McIntosh & Otis, Inc., Samuel Pinkus,
Anderson Farber Runkle, and Eugene H. Winick,
Defendants–Intervenors–Defendants–Appellees.
No. 09–1836–cv.
Oct. 13, 2010.

60a
Appeal from a judgment of the United States District
Court for the Southern District of New York (George
B. Daniels, Judge).
UPON DUE CONSIDERATION IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
December 4, 2009 judgment of the district court is
AFFIRMED.
Attorneys and Law Firms
Jennifer Ancona Semko, Baker & McKenzie LLP,
Washington, D.C., for Appellants.
Susan J. Kohlmann (Tarsha A. Phillibert, on the brief),
Jenner & Block LLP, New York, New York, for
Waverly Scott Kaffaga, individually and as executor of
the Estate of Elaine Anderson Steinbeck, David Scott
Farber, Anderson Farber *574 Runkle, Jebel Kaffaga,
Bahar Kaffaga, and Jean Anderson Boone, for
Appellees.
Elizabeth A. McNamara (Lacy H. Koonce, III, on the
brief), Davis Wright Tremaine LLP, New York, New
York, for McIntosh & Otis, Inc., Eugene H. Winick, and
Samuel Pinkus.
PRESENT: ROBERT D. SACK, REENA RAGGI,
Circuit Judges and JOHN G. KOELTL, District Judge.*
SUMMARY ORDER
This court is already well familiar with the
longstanding dispute among the heirs of author John
Steinbeck about copyright interests in his works. See

61a
Penguin Group (USA) Inc. v. Steinbeck, 537 F.3d 193,
204 (2d Cir.2008). On this appeal, plaintiffs Thomas
Steinbeck and Blake Smyle, the author's son and
grandaughter (by Steinbeck's deceased son, John IV),
challenge an award of summary judgment in favor of
defendants the estate of Elaine Steinbeck, the author's
third wife and widow, and McIntosh & Otis, Inc. (“M &
O”), a literary agency administering the relevant
Steinbeck copyrights, on claims of (1) breach of
fiduciary duty, (2) promissory estoppel, and (3) unjust
enrichment (with an accompanying request for
imposition of a constructive trust). See Steinbeck v.
McIntosh & Otis, Inc., No. 04 Civ. 5497, 2009 WL
928189 (S.D.N.Y. Mar. 31, 2009).1 Plaintiffs further
appeal a judgment on the pleadings in favor of M & O
on its counter-claim challenging the validity of Thomas
Steinbeck's purported termination of defendant as
literary agent for the estate. See Steinbeck v. McIntosh
& Otis, Inc., No. 04 Civ. 5497, 2009 WL 928171
(S.D.N.Y. Mar. 31, 2009).
We review an award of summary judgment de
novo, “resolving all ambiguities and drawing all
permissible factual inferences in favor of the party
against whom summary judgment is sought.” Burg v.
Gosselin, 591 F.3d 95, 97 (2d Cir.2010) (internal
quotation marks omitted). We will uphold such an
award only if the record reveals no genuine issues of
material fact and the moving party is entitled to
judgment as a matter of law. See Fed.R.Civ.P. 56(c)(2).
We review a judgment on the pleadings de novo,
accepting the pleaded allegations as true and drawing
all reasonable inferences in favor of the opposing party,
see, e.g., LaFaro v. N.Y. Cardiothoracic Grp., PLLC,
570 F.3d 471, 475–76 (2d Cir.2009) (characterizing legal

62a
standards for review of motions to dismiss and for
judgment on pleadings as “indistinguishable”),
consistent with the pleading standards articulated in
Ashcroft v. Iqbal, –––U.S. ––––, 129 S.Ct. 1937, 1949,
173 L.Ed.2d 868 (2009), and Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570, 127 S.Ct. 1955, 167 L.Ed.2d
929 (2007). In applying these standards here, we
assume the parties' familiarity with the facts and
procedural history of this case, which we reference only
as necessary to explain our decision to affirm.
1. Breach of Fiduciary Duty
a. Elaine Steinbeck
Thomas Steinbeck contends that the district
court erred in concluding as a matter of law that the
1983 settlement agreement among himself, his brother
John IV, and Elaine Steinbeck (the “1983 Agreement”),
as well as powers of attorney in favor of Elaine
Steinbeck executed by the sons in connection with that
agreement, did not create an agency relationship with
Elaine Steinbeck assuming fiduciary obligations to the
sons and their successors in interest. We disagree.
Under New York law, an agency relationship
“results from a manifestation of consent by one person
to another that the other shall act on his behalf and
subject to his control, and the consent by the other to
act.” New York Marine & Gen. Ins. Co. v. Tradeline
(L.L.C.), 266 F.3d 112, 122 (2d Cir.2001) (internal
quotation marks omitted). A principal's ability to
exercise control over its agent is an essential element of
agency. See generally Restatement (Third) of Agency §
1.01, cmt. f; accord Mazart v. State, 109 Misc.2d 1092,
1099, 441 N.Y.S.2d 600, 605 (N.Y.Ct.Cl.1981) (noting

63a
that “there can be no agency relationship where the
alleged principal has no right of control over the alleged
agent”). Where, as here, parties contend that an agency
relationship is established by contract, see, e.g.,
Pyramid Champlain Co. v. R.P. Brosseau & Co., 267
A.D.2d 539, 544, 699 N.Y.S.2d 516, 522 (3d Dep't 1999),
a court will look to the language of that agreement to
ascertain the relationship created between the parties,
see EBC I, Inc. v. Goldman Sachs & Co., 5 N.Y.3d 11,
19–20, 799 N.Y.S.2d 170, 175, 832 N.E.2d 26 (2005);
Northeast Gen. Corp. v. Wellington Adver., Inc., 82
N.Y.2d 158, 162, 604 N.Y.S.2d 1, 3, 624 N.E.2d 129
(1993). When we do so here, we conclude that the 1983
Agreement did not create an agency relationship.
The 1983 Agreement increased the Steinbeck
sons' shares in certain copyright revenue, from onequarter to one-third each, and, in return, conferred
upon Elaine Steinbeck “the complete power and
authority to negotiate, authorize and take action with
respect to the exploitation and/or termination of rights
in the works of John Steinbeck in which [John IV] and
[Thomas] have or will have renewal or termination
rights.” 1983 Agreement ¶ 5. This language is
unambiguous and forecloses any argument that the
parties intended the Steinbeck sons to retain control
over Elaine Steinbeck's exercise of the authority
conferred upon her, as would be necessary to create an
agency relationship. See, e.g., Meese v. Miller, 79 A.D.2d
237, 241, 436 N.Y.S.2d 496, 499–500 (4th Dep't 1981);
Garcia v. Herald Tribune Fresh Air Fund, Inc., 51
A.D.2d 897, 897, 380 N.Y.S.2d 676, 678 (1st Dep't 1976);
Krom v. Sharp & Dohme, Inc., 7 A.D.2d 761, 761, 180
N.Y.S.2d 99, 101 (3d Dep't 1958). The conclusion is
reinforced by the fact that the 1983 Agreement

64a
imposed only specific circumscribed reporting
obligations on Elaine Steinbeck, not the full reporting
obligations associated with a fiduciary appointment. See
generally Restatement (Third) of Agency ch. 8.
The powers of attorney executed in favor of
Elaine Steinbeck support no different conclusion. In
urging otherwise, plaintiffs point to the words
“attorney-in-fact” used in those documents, which they
submit New York recognizes to create an agency
relationship and attendant fiduciary obligations. See In
re Estate of Ferrara, 7 N.Y.3d 244, 254, 819 N.Y.S.2d
215, 221, 852 N.E.2d 138 (2006). While reference to an
attorney-in-fact can certainly constitute evidence of
agency, we do not understand New York law to depart
from the general principle that labels are not
dispositive of the question. See generally Restatement
(Third) of Agency § 1.02 *576 (“Although agency is a
consensual relationship, how the parties to any given
relationship label it is not dispositive.”). The 1983
Agreement makes clear that the powers of attorney
were executed solely to effectuate the authority
conferred upon Elaine Steinbeck under that
Agreement. That authority was “complete” with no
control retained by the Steinbeck sons. Thus, because
the 1983 Agreement did not create an agency
relationship between Elaine Steinbeck and the
Steinbeck sons, or otherwise impose fiduciary
obligations on her, nor did the powers of attorneys
intended to effectuate it. See Keyes v. Metro. Trust Co.
of N.Y.C., 220 N.Y. 237, 242, 115 N.E. 455, 456 (1917)
(“The purpose of a written power of attorney is not to
define the authority of the agent, as between himself
and his principal, but to evidence the authority of the
agent to third parties with whom the agent deals.”);

65a
accord In re Anyon's Estate, 137 Misc. 582, 585, 244
N.Y.S. 244, 248 (1930); see also Villanueva v. Brown,
103 F.3d 1128, 1136 (3d Cir.1997) (holding, in applying
New Jersey law, that “primary purpose of a power of
attorney is not to define the authority conferred on the
agent by the principal, but to provide third persons
with evidence of agency authority”). Rather, the
powers of attorney here at issue conferred upon Elaine
Steinbeck power coupled with an interest in the very
copyrights that were the subject of the power
conferred, an arrangement from which no fiduciary
obligation arises. See 330 Acquisition Co., LLC. v.
Regency Sav. Bank, F.S.B., 306 A.D.2d 154, 155, 761
N.Y.S.2d 185, 186 (1st Dep't 2003); Hotel Prince George
Affiliates v. Maroulis, 98 A.D.2d 652, 654, 469 N.Y.S.2d
718, 721 (1st Dep't 1983), rev'd on other grounds, 62
N.Y.2d 1005, 1008–09, 479 N.Y.S.2d 489, 490–91, 468
N.E.2d 671 (1984); French v. Kensico Cemetery, 264
A.D. 617, 619, 35 N.Y.S.2d 826, 828–29 (2d Dep't 1942),
aff'd, 291 N.Y. 77, 80, 50 N.E.2d 551 (1943); see also
Restatement (Third) of Agency § 3.12, cmt. b & illus. 5.
Accordingly, we conclude that plaintiffs fail as a
matter of law to state a claim against Elaine Steinbeck
for breach of fiduciary duty.
b. M & O
We similarly reject Thomas Steinbeck's
argument that M & O owed and breached fiduciary
obligations created by the 1983 Agreement and powers
of attorney. To the extent M & O is charged with
fiduciary duties derivatively as Elaine Steinbeck's
subagent, that argument is foreclosed by our conclusion
that Elaine was not an agent of the Steinbeck sons. See

66a
generally Empire State Ins. Co. v. Am. Cent. Ins. Co.,
138 N.Y. 446, 449, 34 N.E. 200, 201 (1893); Restatement
(Third) of Agency § 3.16. Nor did the 1983 Agreement
appoint M & O to act as agent for the Steinbeck heirs
generally. The Steinbeck sons surrendered “complete
authority” to Elaine Steinbeck to exploit John
Steinbeck's copyrights and also vested her with “sole
discretion” to terminate M & O's agency. Under these
circumstances, the 1983 Agreement does not manifest
Thomas Steinbeck's ability to control M & O as would
be required to create an agency relationship giving rise
to fiduciary obligations.2
Nor did fiduciary duties arise by virtue of an
alleged attorney-client relationship between Thomas
Steinbeck and certain principals at M & O. “Since an
attorney-client relationship does not depend on the
existence of a formal retainer agreement or upon
payment of a fee, a court must look to the words and
actions of the parties to ascertain the existence of such
a relationship.” Moran v. Hurst, 32 A.D.3d 909, 911, 822
N.Y.S.2d 564, 566 (2d Dep't 2006) (internal citations
omitted); see also Talansky v. Schulman, 2 A.D.3d 355,
359, 770 N.Y.S.2d 48, 52 (1st Dep't 2003) (finding fact
issue where “totality of the evidence at least
suggest[ed] that defendant was acting as plaintiff's
attorney”). Here, Thomas Steinbeck asserts that
certain M & O principals who were licensed attorneys
held themselves out as copyright experts, expressed
sympathy for him, and told him they had his best
interests in mind, thereby persuading him “to have
trust and confidence in their advice concerning his
interests in his father's works.” Plaintiffs Thomas
Steinbeck's & Blake Smyle's Rule 56.1 Statement of
Additional Material Facts in Opp'n to the M & O Defs.'

67a
Mot. for Summ. J. ¶ 48, Steinbeck v. Steinbeck, No. 04
Civ. 5497 (S.D.N.Y. Oct.15, 2008). Even accepting these
allegations as true, they are insufficient to allow a
reasonable factfinder to infer an attorney-client
relationship, especially in light of record evidence that
Thomas Steinbeck was at the relevant times
represented by other counsel. See, e.g., Moran v. Hurst,
32 A.D.3d at 911, 822 N.Y.S.2d at 566 (“The record is
devoid of any evidence indicating that [the attorneys]
either affirmatively led [the alleged client] to believe
that they were acting as his attorney or knowingly
allowed him to proceed under that misconception.”); cf.
McLenithan v. McLenithan, 273 A.D.2d 757, 759, 710
N.Y.S.2d 674, 675–76 (3d Dep't 2000) (finding factual
issue as to attorney-client relationship where attorney
advised plaintiffs to sign certain documents, previously
represented plaintiffs, had familial relationship with
plaintiffs, and represented them with respect to aspects
of instant transaction).
Accordingly, we conclude that the district court
properly granted summary judgment in favor of M & O
on the breach of fiduciary duty claim.
2. Promissory Estoppel
Under New York law, a claim for promissory
estoppel requires “a clear and unambiguous promise,
reasonable and foreseeable reliance by the party to
whom the promise is made, and an injury sustained in
reliance on that promise.” Williams v. Eason, 49
A.D.3d 866, 868, 854 N.Y.S.2d 477, 479 (2d Dep't 2008);
see also Braddock v. Braddock, 60 A.D.3d 84, 95, 871
N.Y.S.2d 68, 77 (1st Dep't 2009). The district court
concluded that Thomas Steinbeck failed to adduce

68a
evidence raising a triable issue of fact on the reliance
element. We may “affirm the district court's judgment
on any ground appearing in the record, even if the
ground is different from the one relied on by the
district court.” ACEquip Ltd. v. Am. Eng'g Corp., 315
F.3d 151, 155 (2d Cir.2003).
The record makes clear that Thomas Steinbeck
could not reasonably have relied on Elaine Steinbeck's
purported oral promise that he could “market all rights
in” John Steinbeck's travelogue, Travels With Charley,
Compl. ¶ 48(c), because such a representation modifies
the relationship between the parties established by the
1983 Agreement, which by its terms can only be done in
writing. See, e.g., Capricorn Investors III, L.P. v.
Coolbrands Int'l, Inc., 66 A.D.3d 409, 410, 886 N.Y.S.2d
158, 159 (1st Dep't 2009) (holding that party cannot
reasonably rely on promise that conflicts with written
agreement's express terms); *578 Ruffino v. Neiman,
17 A.D.3d 998, 1000, 794 N.Y.S.2d 228, 229 (4th Dep't
2005) (same); accord Rose v. Spa Realty Assocs., 42
N.Y.2d 338, 343, 397 N.Y.S.2d 922, 926, 366 N.E.2d 1279
(1977) (noting that, generally, “if the only proof of an
alleged agreement to deviate from a written contract is
the oral exchanges between the parties, the writing
controls”).
3. Unjust Enrichment and Constructive Trust
Under New York law, a claim for unjust
enrichment requires proof “(1) that the defendant
benefitted; (2) at the plaintiff's expense; and (3) that
equity and good conscience require restitution.” Beth
Isr. Med. Ctr. v. Horizon Blue Cross & Blue Shield of
N.J., Inc., 448 F.3d 573, 586 (2d Cir.2006) (internal

69a
quotations omitted); see also Old Republic Nat'l Title
Ins. Co. v. Luft, 52 A.D.3d 491, 491–92, 859 N.Y.S.2d
261, 262 (2d Dep't 2008). Meanwhile, to impose a
constructive trust, the law demands “(1) a confidential
or fiduciary relationship; (2) a promise, express or
implied; (3) a transfer made in reliance on that promise;
and (4) unjust enrichment.” In re Ades & Berg Grp.
Investors, 550 F.3d 240, 245 (2d Cir.2008); see also
Abacus Fed. Sav. Bank v. Lim, 75 A.D.3d 472, 473, 905
N.Y.S.2d 585, 587 (1st Dep't 2010); Rose v. Rose, 72
A.D.3d 1060, 1060, 898 N.Y.S.2d 889, 890 (2d Dep't
2010).
To support their claim for unjust enrichment,
plaintiffs appear to argue that Elaine Steinbeck
benefitted at Blake Smyle's expense by withholding
information from the granddaughter about her
termination rights and then exercising those rights
herself without seeking Blake Smyle's consent in a 1994
transaction the validity of which we upheld in Penguin
Group (USA) Inc. v. Steinbeck, 537 F.3d at 204. This
was, however, precisely what Elaine Steinbeck was
empowered to do under the 1983 Agreement, which
expressly bound Blake Smyle as John Steinbeck IV's
successor in interest. Blake Smyle's consent was not
required for the exercise of Elaine Steinbeck's
authority under that Agreement, and any attempt by
the granddaughter to exercise rights transferred to
Elaine Steinbeck likely would have violated the 1983
Agreement. The parties do not dispute that Blake
Smyle continues to receive pro rata royalty payments
owed to her under the 1994 agreement she claims
unjustly enriched Elaine Steinbeck. As a result, we
identify no benefit derived by Elaine Steinbeck at
Blake Smyle's expense and, consequently, conclude that

70a
plaintiffs' claims for unjust enrichment and imposition
of a constructive trust were properly dismissed as
without merit.
4. Termination of M & O
Thomas Steinbeck argues that the “sole
discretion” vested with Elaine Steinbeck to terminate
M & O did not descend to Elaine Steinbeck's heirs
because the 1983 Agreement was a personal services
contract and, as a result, was not governed by New
York's general rule that, “in the absence of express
words, ... the parties to a contract intend to bind not
only themselves, but their personal representatives.”
Gura v. Herman, 227 A.D. 452, 454, 238 N.Y.S. 230, 233
(2d Dep't 1929), aff'd, 253 N.Y. 618, 171 N.E. 808 (1930);
see Warner v. Kaplan, 71 A.D.3d 1, 4, 892 N.Y.S.2d 311,
313–14 (1st Dep't 2009); Di Scipio v. Sullivan, 30
A.D.3d 660, 661, 816 N.Y.S.2d 576, 577 (3d Dep't 2006).
That distinction does not apply here.3
First, the 1983 Agreement is not a services
contract in the manner described in the decisions relied
upon by Thomas Steinbeck. See, e.g., Buccini v. Paterno
Const. Co., 253 N.Y. 256, 257–58, 170 N.E. 910, 911
(1930) (Cardozo, J.). Those decisions hold that where
unique and extraordinary services of a particular
obligor are the subject of a contract, that obligor's
death absolves the parties of any unfulfilled
performance obligations. See, e.g., id.; Lorillard v.
Clyde, 142 N.Y. 456, 462, 37 N.E. 489, 491 (1894) (citing
Taylor v. Caldwell, 122 Eng. Rep. 309, 1863 WL 6052
(K.B.1863)). Here, Thomas Steinbeck did not contract
to obtain Elaine Steinbeck's services; rather, he and his
brother contracted to obtain a greater share of royalty

71a
payments in return for yielding complete authority
over the copyrights at issue to Elaine Steinbeck,
including sole discretion to terminate M & O as literary
agent.
Second, nothing in the record indicates that
Elaine Steinbeck's exercise of “sole discretion” required
unique and extraordinary skills sufficient to qualify this
provision of the 1983 Agreement as a personal services
contract. Thomas Steinbeck argues that Elaine
Steinbeck's experience made her “uniquely wellpositioned to handle the concededly difficult and
complex process of effectively exploiting the
copyrights.” Reply Br. at 17. Even if that were true,
the power at issue is the authority to terminate a
literary agent, not Elaine's overall authority to manage
the copyrights. We are not persuaded that the exercise
of that authority required extraordinary skills
possessed uniquely by Elaine Steinbeck.
Finally, Thomas Steinbeck has not identified a
material factual dispute regarding whether Elaine
Steinbeck, acting through M & O principals,
surrendered her right to terminate M & O's agency in
her sole discretion. Even assuming that Elaine
Steinbeck so surrendered those powers of attorney,
Thomas Steinbeck offers no reason for interpreting that
authority as conditioned upon Elaine Steinbeck's
holding her stepson's power of attorney. Just as that
power of attorney did not create Elaine's authority,
which derived from the 1983 Agreement, neither would
release of the power of attorney terminate that
authority. Consequently, we conclude that Elaine's
contractual right to terminate the agency relationship

72a
with M & O, like other contractual rights not personal
in nature, was fully descendible.
We have considered plaintiffs' other arguments
and find them to be without merit. Accordingly, the
December 4, 2009 judgment of the district court is
hereby AFFIRMED.
*District Judge John G. Koeltl of the United States
District Court for the Southern District of New York,
sitting by designation.
1In a footnote in their appellate brief, plaintiffs suggest
that, for the same reasons the district court erred in
dismissing their fiduciary duty claim, it erred in
dismissing claims against M & O for fraud, negligent
misrepresentation, and interference with economic
advantage. Generally, we deem an argument raised
only in a footnote as waived. See Norton v. Sam's Club,
145 F.3d 114, 117 (2d Cir.1998). We see no reason to
depart from this rule in this case. See In re Nortel
Networks Corp. Sec. Litig., 539 F.3d 129, 133 (2d
Cir.2008) (noting that waiver doctrine is prudential and
may be disregarded in our discretion). In any event,
because we identify no merit in plaintiffs' fiduciary duty
challenge, see infra at 5–11, these derivative arguments
also fail.
2To the extent Thomas Steinbeck urges reversal of
summary judgment to allow him to pursue discovery as
to whether M & O was complying with Elaine
Steinbeck's directions, we are not persuaded because
such inquiry could not reasonably be expected to create
a genuine issue of material fact as to the existence of an
agency relationship between M & O and Thomas

73a
Steinbeck. See Miller v. Wolpoff & Abramson, L.L.P.,
321 F.3d 292, 303 (2d Cir.2003).
3We do not consider whether M & O should be
permitted to invoke the 1983 Agreement because
Thomas Steinbeck did not raise that issue before the
district court. See Singleton v. Wulff, 428 U.S. 106, 120,
96 S.Ct. 2868, 49 L.Ed.2d 826 (1976); Diaz v. Paterson,
547 F.3d 88, 94–95 (2d Cir.2008). Under the
circumstances, we perceive no unfairness in enforcing
Thomas Steinbeck's waiver.

74a
United States District Court for the Central District of
California,
No. 2:14-cv-08681-TJH-GJS
THOMAS STEINBECK et al., Plaintiffs,
v.
WAVERLY SCOTT KAFFAGA, et al., Defendants.
ORDER
JS-6
The Court has considered Defendants' motion to
dismiss, with the moving and opposing papers.
Plaintiffs have litigated these claims ad
museum. Penguin Group (USA) Inc., v. Steinbeck, 537
F.3d 193 (2008); Steinbeck v. McIntosh & Otis, Inc., 400
F. Appx. 572 (2d Cir. 2010), cent. denied, 556 U.S. 1253,
129 S. Ct. 2383 (2009), 173 L. Ed. 2d 1326 (2009);
Steinbeck v. Steinbeck Heritage Found., 400 F. Appx
572, 579 (2d Cir. 2010), cent. denied,
U.S. , 131 S.
Ct. 2991, 180 L. Ed. 2d 836 (2011).
Plaintiffs are attempting to use this Court, after
having exhausted their attempts in the Second Circuit,
to revoke the validity of the 1983 agreement to recover
rights to the Steinbeck Works, after Plaintiffs,
cognizant of the value inherent in copyrights of the
Steinbeck Works, signed over control and authority to
Elaine Steinbeck (Estate).
This action is barred by collateral estoppel.

75a
It is ORDERED that Defendants' motion to
dismiss be, and hereby is, Granted with prejudice.
Date: August 11, 2015
Terry J. Hatter, Jr.
Senior United States District Judge

76a
17 U.S. Code § 203. Termination of transfers and
licenses granted by the author
(a) Conditions for Termination.—In the case of any
work other than a work made for hire, the exclusive or
nonexclusive grant of a transfer or license of copyright
or of any right under a copyright, executed by the
author on or after January 1, 1978, otherwise than by
will, is subject to termination under the following
conditions:
(1) In the case of a grant executed by one author,
termination of the grant may be effected by that author
or, if the author is dead, by the person or persons who,
under clause (2) of this subsection, own and are entitled
to exercise a total of more than one-half of that author’s
termination interest. In the case of a grant executed by
two or more authors of a joint work, termination of the
grant may be effected by a majority of the authors who
executed it; if any of such authors is dead, the
termination interest of any such author may be
exercised as a unit by the person or persons who, under
clause (2) of this subsection, own and are entitled to
exercise a total of more than one-half of that author’s
interest.
(2) Where an author is dead, his or her termination
interest is owned, and may be exercised, as follows:
(A) The widow or widower owns the author’s entire
termination interest unless there are any surviving
children or grandchildren of the author, in which case
the widow or widower owns one-half of the author’s
interest.
(B) The author’s surviving children, and the surviving
children of any dead child of the author, own the
author’s entire termination interest unless there is a

77a
widow or widower, in which case the ownership of onehalf of the author’s interest is divided among them.
(C) The rights of the author’s children and
grandchildren are in all cases divided among them and
exercised on a per stirpes basis according to the
number of such author’s children represented; the
share of the children of a dead child in a termination
interest can be exercised only by the action of a
majority of them.
(D) In the event that the author’s widow or widower,
children, and grandchildren are not living, the author’s
executor, administrator, personal representative, or
trustee shall own the author’s entire termination
interest.
(3) Termination of the grant may be effected at any
time during a period of five years beginning at the end
of thirty-five years from the date of execution of the
grant; or, if the grant covers the right of publication of
the work, the period begins at the end of thirty-five
years from the date of publication of the work under
the grant or at the end of forty years from the date of
execution of the grant, whichever term ends earlier.
(4) The termination shall be effected by serving an
advance notice in writing, signed by the number and
proportion of owners of termination interests required
under clauses (1) and (2) of this subsection, or by their
duly authorized agents, upon the grantee or the
grantee’s successor in title.
(A) The notice shall state the effective date of the
termination, which shall fall within the five-year period
specified by clause (3) of this subsection, and the notice
shall be served not less than two or more than ten years
before that date. A copy of the notice shall be recorded
in the Copyright Office before the effective date of
termination, as a condition to its taking effect.

78a
(B) The notice shall comply, in form, content, and
manner of service, with requirements that the Register
of Copyrights shall prescribe by regulation.
(5) Termination of the grant may be effected
notwithstanding any agreement to the contrary,
including an agreement to make a will or to make any
future grant.
(b) Effect of Termination.—Upon the effective date of
termination, all rights under this title that were
covered by the terminated grants revert to the author,
authors, and other persons owning termination
interests under clauses (1) and (2) of subsection (a),
including those owners who did not join in signing the
notice of termination under clause (4) of subsection (a),
but with the following limitations:
(1) A derivative work prepared under authority of the
grant before its termination may continue to be utilized
under the terms of the grant after its termination, but
this privilege does not extend to the preparation after
the termination of other derivative works based upon
the copyrighted work covered by the terminated grant.
(2) The future rights that will revert upon termination
of the grant become vested on the date the notice of
termination has been served as provided by clause (4)
of subsection (a). The rights vest in the author, authors,
and other persons named in, and in the proportionate
shares provided by, clauses (1) and (2) of subsection (a).
(3) Subject to the provisions of clause (4) of this
subsection, a further grant, or agreement to make a
further grant, of any right covered by a terminated
grant is valid only if it is signed by the same number
and proportion of the owners, in whom the right has
vested under clause (2) of this subsection, as are
required to terminate the grant under clauses (1) and
(2) of subsection (a). Such further grant or agreement is

79a
effective with respect to all of the persons in whom the
right it covers has vested under clause (2) of this
subsection, including those who did not join in signing
it. If any person dies after rights under a terminated
grant have vested in him or her, that person’s legal
representatives, legatees, or heirs at law represent him
or her for purposes of this clause.
(4) A further grant, or agreement to make a further
grant, of any right covered by a terminated grant is
valid only if it is made after the effective date of the
termination. As an exception, however, an agreement
for such a further grant may be made between the
persons provided by clause (3) of this subsection and
the original grantee or such grantee’s successor in title,
after the notice of termination has been served as
provided by clause (4) of subsection (a).
(5) Termination of a grant under this section affects
only those rights covered by the grants that arise under
this title, and in no way affects rights arising under any
other Federal, State, or foreign laws.
(6) Unless and until termination is effected under this
section, the grant, if it does not provide otherwise,
continues in effect for the term of copyright provided
by this title.
(Pub. L. 94–553, title I, § 101, Oct. 19, 1976, 90 Stat.
2569; Pub. L. 105–298, title I, § 103, Oct. 27, 1998, 112
Stat. 2829; Pub. L. 107–273, div. C, title III, § 13210(9),
Nov. 2, 2002, 116 Stat. 1909.)

80a
17 U.S. Code § 304. Duration of copyright: Subsisting
copyrights
(a) Copyrights in Their First Term on January 1,
1978.—
(1)
(A) Any copyright, the first term of which is subsisting
on January 1, 1978, shall endure for 28 years from the
date it was originally secured.
(B) In the case of—
(i) any posthumous work or of any periodical,
cyclopedic, or other composite work upon which the
copyright was originally secured by the proprietor
thereof, or
(ii) any work copyrighted by a corporate body
(otherwise than as assignee or licensee of the individual
author) or by an employer for whom such work is made
for hire,
the proprietor of such copyright shall be entitled to a
renewal and extension of the copyright in such work for
the further term of 67 years.
(C) In the case of any other copyrighted work, including
a contribution by an individual author to a periodical or
to a cyclopedic or other composite work—
(i) the author of such work, if the author is still living,
(ii) the widow, widower, or children of the author, if the
author is not living,
(iii) the author’s executors, if such author, widow,
widower, or children are not living, or
(iv) the author’s next of kin, in the absence of a will of
the author,
shall be entitled to a renewal and extension of the
copyright in such work for a further term of 67 years.
(2)

81a
(A) At the expiration of the original term of copyright
in a work specified in paragraph (1)(B) of this
subsection, the copyright shall endure for a renewed
and extended further term of 67 years, which—
(i) if an application to register a claim to such further
term has been made to the Copyright Office within 1
year before the expiration of the original term of
copyright, and the claim is registered, shall vest, upon
the beginning of such further term, in the proprietor of
the copyright who is entitled to claim the renewal of
copyright at the time the application is made; or
(ii) if no such application is made or the claim pursuant
to such application is not registered, shall vest, upon
the beginning of such further term, in the person or
entity that was the proprietor of the copyright as of the
last day of the original term of copyright.
(B) At the expiration of the original term of copyright
in a work specified in paragraph (1)(C) of this
subsection, the copyright shall endure for a renewed
and extended further term of 67 years, which—
(i) if an application to register a claim to such further
term has been made to the Copyright Office within 1
year before the expiration of the original term of
copyright, and the claim is registered, shall vest, upon
the beginning of such further term, in any person who
is entitled under paragraph (1)(C) to the renewal and
extension of the copyright at the time the application is
made; or
(ii) if no such application is made or the claim pursuant
to such application is not registered, shall vest, upon
the beginning of such further term, in any person
entitled under paragraph (1)(C), as of the last day of the
original term of copyright, to the renewal and extension
of the copyright.
(3)

82a
(A) An application to register a claim to the renewed
and extended term of copyright in a work may be made
to the Copyright Office—
(i) within 1 year before the expiration of the original
term of copyright by any person entitled under
paragraph (1)(B) or (C) to such further term of 67
years; and
(ii) at any time during the renewed and extended term
by any person in whom such further term vested, under
paragraph (2)(A) or (B), or by any successor or assign of
such person, if the application is made in the name of
such person.
(B) Such an application is not a condition of the renewal
and extension of the copyright in a work for a further
term of 67 years.
(4)
(A) If an application to register a claim to the renewed
and extended term of copyright in a work is not made
within 1 year before the expiration of the original term
of copyright in a work, or if the claim pursuant to such
application is not registered, then a derivative work
prepared under authority of a grant of a transfer or
license of the copyright that is made before the
expiration of the original term of copyright may
continue to be used under the terms of the grant during
the renewed and extended term of copyright without
infringing the copyright, except that such use does not
extend to the preparation during such renewed and
extended term of other derivative works based upon
the copyrighted work covered by such grant.
(B) If an application to register a claim to the renewed
and extended term of copyright in a work is made
within 1 year before its expiration, and the claim is
registered, the certificate of such registration shall
constitute prima facie evidence as to the validity of the

83a
copyright during its renewed and extended term and of
the facts stated in the certificate. The evidentiary
weight to be accorded the certificates of a registration
of a renewed and extended term of copyright made
after the end of that 1-year period shall be within the
discretion of the court.
(b) Copyrights in Their Renewal Term at the Time of
the Effective Date of the Sonny Bono Copyright Term
Extension Act.—
Any copyright still in its renewal term at the time that
the Sonny Bono Copyright Term Extension Act
becomes effective shall have a copyright term of 95
years from the date copyright was originally secured.
(c) Termination of Transfers and Licenses Covering
Extended Renewal Term.—In the case of any
copyright subsisting in either its first or renewal term
on January 1, 1978, other than a copyright in a work
made for hire, the exclusive or nonexclusive grant of a
transfer or license of the renewal copyright or any right
under it, executed before January 1, 1978, by any of the
persons designated by subsection (a)(1)(C) of this
section, otherwise than by will, is subject to
termination under the following conditions:
(1) In the case of a grant executed by a person or
persons other than the author, termination of the grant
may be effected by the surviving person or persons who
executed it. In the case of a grant executed by one or
more of the authors of the work, termination of the
grant may be effected, to the extent of a particular
author’s share in the ownership of the renewal
copyright, by the author who executed it or, if such
author is dead, by the person or persons who, under
clause (2) of this subsection, own and are entitled to
exercise a total of more than one-half of that author’s
termination interest.

84a
(2) Where an author is dead, his or her termination
interest is owned, and may be exercised, as follows:
(A) The widow or widower owns the author’s entire
termination interest unless there are any surviving
children or grandchildren of the author, in which case
the widow or widower owns one-half of the author’s
interest.
(B) The author’s surviving children, and the surviving
children of any dead child of the author, own the
author’s entire termination interest unless there is a
widow or widower, in which case the ownership of onehalf of the author’s interest is divided among them.
(C) The rights of the author’s children and
grandchildren are in all cases divided among them and
exercised on a per stirpes basis according to the
number of such author’s children represented; the
share of the children of a dead child in a termination
interest can be exercised only by the action of a
majority of them.
(D) In the event that the author’s widow or widower,
children, and grandchildren are not living, the author’s
executor, administrator, personal representative, or
trustee shall own the author’s entire termination
interest.
(3) Termination of the grant may be effected at any
time during a period of five years beginning at the end
of fifty-six years from the date copyright was originally
secured, or beginning on January 1, 1978, whichever is
later.
(4) The termination shall be effected by serving an
advance notice in writing upon the grantee or the
grantee’s successor in title. In the case of a grant
executed by a person or persons other than the author,
the notice shall be signed by all of those entitled to
terminate the grant under clause (1) of this subsection,

85a
or by their duly authorized agents. In the case of a
grant executed by one or more of the authors of the
work, the notice as to any one author’s share shall be
signed by that author or his or her duly authorized
agent or, if that author is dead, by the number and
proportion of the owners of his or her termination
interest required under clauses (1) and (2) of this
subsection, or by their duly authorized agents.
(A) The notice shall state the effective date of the
termination, which shall fall within the five-year period
specified by clause (3) of this subsection, or, in the case
of a termination under subsection (d), within the fiveyear period specified by subsection (d)(2), and the
notice shall be served not less than two or more than
ten years before that date. A copy of the notice shall be
recorded in the Copyright Office before the effective
date of termination, as a condition to its taking effect.
(B) The notice shall comply, in form, content, and
manner of service, with requirements that the Register
of Copyrights shall prescribe by regulation.
(5) Termination of the grant may be effected
notwithstanding any agreement to the contrary,
including an agreement to make a will or to make any
future grant.
(6) In the case of a grant executed by a person or
persons other than the author, all rights under this title
that were covered by the terminated grant revert, upon
the effective date of termination, to all of those entitled
to terminate the grant under clause (1) of this
subsection. In the case of a grant executed by one or
more of the authors of the work, all of a particular
author’s rights under this title that were covered by the
terminated grant revert, upon the effective date of
termination, to that author or, if that author is dead, to
the persons owning his or her termination interest

86a
under clause (2) of this subsection, including those
owners who did not join in signing the notice of
termination under clause (4) of this subsection. In all
cases the reversion of rights is subject to the following
limitations:
(A) A derivative work prepared under authority of the
grant before its termination may continue to be utilized
under the terms of the grant after its termination, but
this privilege does not extend to the preparation after
the termination of other derivative works based upon
the copyrighted work covered by the terminated grant.
(B) The future rights that will revert upon termination
of the grant become vested on the date the notice of
termination has been served as provided by clause (4)
of this subsection.
(C) Where the author’s rights revert to two or more
persons under clause (2) of this subsection, they shall
vest in those persons in the proportionate shares
provided by that clause. In such a case, and subject to
the provisions of subclause (D) of this clause, a further
grant, or agreement to make a further grant, of a
particular author’s share with respect to any right
covered by a terminated grant is valid only if it is
signed by the same number and proportion of the
owners, in whom the right has vested under this clause,
as are required to terminate the grant under clause (2)
of this subsection. Such further grant or agreement is
effective with respect to all of the persons in whom the
right it covers has vested under this subclause,
including those who did not join in signing it. If any
person dies after rights under a terminated grant have
vested in him or her, that person’s legal
representatives, legatees, or heirs at law represent him
or her for purposes of this subclause.

87a
(D) A further grant, or agreement to make a further
grant, of any right covered by a terminated grant is
valid only if it is made after the effective date of the
termination. As an exception, however, an agreement
for such a further grant may be made between the
author or any of the persons provided by the first
sentence of clause (6) of this subsection, or between the
persons provided by subclause (C) of this clause, and
the original grantee or such grantee’s successor in title,
after the notice of termination has been served as
provided by clause (4) of this subsection.
(E) Termination of a grant under this subsection affects
only those rights covered by the grant that arise under
this title, and in no way affects rights arising under any
other Federal, State, or foreign laws.
(F) Unless and until termination is effected under this
subsection, the grant, if it does not provide otherwise,
continues in effect for the remainder of the extended
renewal term.
(d) Termination Rights Provided in Subsection (c)
Which Have Expired on or Before the Effective Date of
the Sonny Bono Copyright Term Extension Act.—In
the case of any copyright other than a work made for
hire, subsisting in its renewal term on the effective date
of the Sonny Bono Copyright Term Extension Act for
which the termination right provided in subsection (c)
has expired by such date, where the author or owner of
the termination right has not previously exercised such
termination right, the exclusive or nonexclusive grant
of a transfer or license of the renewal copyright or any
right under it, executed before January 1, 1978, by any
of the persons designated in subsection (a)(1)(C) of this
section, other than by will, is subject to termination
under the following conditions:

88a
(1) The conditions specified in subsections (c)(1), (2), (4),
(5), and (6) of this section apply to terminations of the
last 20 years of copyright term as provided by the
amendments made by the Sonny Bono Copyright Term
Extension Act.
(2) Termination of the grant may be effected at any
time during a period of 5 years beginning at the end of
75 years from the date copyright was originally
secured.
(Pub. L. 94–553, title I, § 101, Oct. 19, 1976, 90 Stat.
2573; Pub. L. 102–307, title I, § 102(a), (d), June 26, 1992,
106 Stat. 264, 266; Pub. L. 105–80, § 12(a)(9), Nov. 13,
1997, 111 Stat. 1535; Pub. L. 105–298, title I,
§§ 102(d)(1), 103, Oct. 27, 1998, 112 Stat. 2827, 2829;
Pub. L. 107–273, div. C, title III, § 13210(10), Nov. 2,
2002, 116 Stat. 1910.)

